<html>
<title> - WHAT WILL DRIVE CHINA'S FUTURE LEGAL DEVELOPMENT? REPORTS FROM THE FIELD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  WHAT WILL DRIVE CHINA'S FUTURE LEGAL DEVELOPMENT? REPORTS FROM THE 
                                 FIELD

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 18, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-634 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-
MARCY KAPTUR, Ohio                   Chairman
MICHAEL M. HONDA, California         MAX BAUCUS, Montana
TOM UDALL, New Mexico                CARL LEVIN, Michigan
TIMOTHY J. WALZ, Minnesota           DIANNE FEINSTEIN, California
CHRISTOPHER H. SMITH, New Jersey     SHERROD BROWN, Ohio
JOSEPH R. PITTS, Pennsylvania        CHUCK HAGEL, Nebraska
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
EDWARD R. ROYCE, California          GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida            
                                     
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director

                                  (ii)


                             CO N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Hon. Byron Dorgan, a U.S. Senator from North 
  Dakota, Co-Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Pitts, Hon. Joseph R., a U.S. Representative from Pennsylvania, 
  Member, Congressional-Executive Commission on China............     3
Han, Dongfang, Executive Director, China Labour Bulletin.........     5
Smith, Hon. Christopher H., a U.S. Representative from New 
  Jersey, Member, Congressional-Executive Commission on China....     7
Wang, Tiancheng, Beijing scholar and Founder, Liberal and 
  Democratic Party of China......................................     9
Levin, Hon. Sander M., a U.S. Representative from Michigan, 
  Chairman, Congressional-Executive Commission on China..........    10
Xiao, Qiang, Director, China Internet Project, and Founder, China 
  Digital Times, University of California-Berkeley...............    11
Fu, Bob, President, China Aid Association........................    14

                                APPENDIX
                          Prepared Statements

Han, Dongfang....................................................    26
Wang, Tiancheng..................................................    29
Xiao, Qiang......................................................    31
Fu, Bob..........................................................    34

Levin, Hon. Sander...............................................    38
Dorgan, Hon. Byron...............................................    39
Pitts, Hon. Joseph R.............................................    40


  WHAT WILL DRIVE CHINA'S FUTURE LEGAL DEVELOPMENT? REPORTS FROM THE 
                                 FIELD

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:34 
a.m., in room B-318, Rayburn House Office Building, Senator 
Byron Dorgan, (Co-Chairman of the Commission) presiding.
    Also present: Representative Sander M. Levin, Chairman; 
Representative Joseph R. Pitts; Representative Michael M. 
Honda; and Representative Christopher H. Smith.

  OPENING STATEMENT OF HON. BYRON DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA, CO-CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Co-Chairman Dorgan. We're going to begin the hearing this 
morning. I'm Senator Dorgan, Co-Chairman of the Congressional-
Executive Commission on China [CECC]. The Chairman of the CECC, 
Congressman Levin, is detained at the moment in a Ways and 
Means Committee markup, but he will be along.
    We're joined by Congressman Pitts. Congressman Pitts, 
welcome to you.
    Let me describe the purpose of today's hearing. We have 
four witnesses. Let me state at the outset that the witnesses 
are people of great courage who have, in many different ways, 
fought for change, democracy, and human rights in China. Three 
of these four witnesses have spent time in jails in China. We 
appreciate the work that all of them have done on behalf of 
people who aspire and yearn to be free.
    The purpose of today's hearing is to examine China's legal 
development. For three decades now, China has engaged in legal 
reform. But it seems to be at a standstill, and it is unclear 
at this point whether that means it has stalled or is at a 
turning point.
    Why does it appear to be at a standstill?
    Well, first, the massive earthquake that tragically killed 
and 
injured tens of thousands of people, too many of them children. 
Second, the violent crackdown that began in March continues in 
Tibetan areas. Beijing has closed off most Tibetan areas, and 
detained or expelled journalists. Finally, the Summer Olympic 
Games are fast approaching. Hosting the Olympic Games has 
highlighted some of Beijing's achievements. We don't and 
shouldn't deny them that. But even more it has highlighted 
Beijing's terrible record on human rights and the environment. 
As the Olympic torch circled the globe, Beijing's Olympic dream 
became a public-relations nightmare.
    These three events are having an enormous impact on many 
areas in China, including legal reform and human rights. And 
that is why we are here today.
    At the Commission's February hearing on the Olympics, I 
submitted for the record a list of political prisoners. Here is 
an update on just one: Hu Jia, a courageous activist, was 
jailed last December by Chinese authorities for comments he 
made at a European Parliament hearing. His comments were 
critical of China's hosting the Olympics. At the time of the 
CECC hearing, his wife and four-month-old daughter had been 
under house arrest for several months. In April, he was 
sentenced to three and a half years in prison for ``inciting 
subversion of state power.'' Hu has severe health problems. His 
request to be released on bail for medical treatment was denied 
in June. His wife and baby remain under constant surveillance, 
and face harassment.
    Every country that has hosted the Olympics has had its 
critics--both at home and abroad. China has dissenting voices 
too on the Olympics--like Hu Jia. But instead of being 
tolerant, it has hit back hard with a combo punch of 
intimidation and imprisonment.
    The Commission is dedicated to understanding these events 
on a deep level. For that reason, we have called four prominent 
Tiananmen Square activists and now internationally renowned 
figures in human rights and rule of law in China. We hope they 
will address two straightforward questions:
    What factors are most likely to determine the course of 
China's legal development in the coming year and beyond?
    What factors do Western analysts more frequently tend to 
overlook or misinterpret?
    I would ask each of our witnesses to highlight for us the 
factors that, in each of your varied experiences, and unique 
perspectives this Commission should focus on in order to most 
effectively understand the course that China's legal 
development is taking and will take as events unfold.
    It would be helpful if you would focus specifically on 
steps China has taken to: combat corruption and to maintain 
popular support for further reform, prospects for the 
enforcement of worker rights, collective bargaining, and labor 
unions.
    I would also ask that you comment on the regulation of 
religious life and of minorities, and trends in pre-Olympic 
crackdown.
    Finally, I would also ask each of our witnesses to make a 
point also of identifying for us the one or two factors that, 
in your experience, Western analysts most frequently overlook, 
misunderstand, or plainly misinterpret. Your complete candor 
will be most helpful and appreciated.
    I want to say one final point. China is a big country with 
a rich, interesting, nearly unbelievable history. It will be a 
significant force in our lives here in the United States, for 
good or for ill, for many decades. That's why we aspire to 
understand what is happening in China.
    We as a country strive always to call upon other countries 
to embrace the human rights of their people, to not imprison 
people for telling the truth, for speaking out, for exercising 
their right of free speech. There is much in China that is 
troubling us, and there is also much that gives us hope. We're 
trying to understand China better, and your willingness, the 
four of you, to come forward today and testify is very much 
appreciated.
    As I indicated, all four of you have played significant 
roles in the history of China. Three of you have spent time in 
Chinese prisons. Your courage need not be explained much 
further than that fact, and we appreciate your being here.
    Mr. Pitts, did you wish to make comments?

 STATEMENT OF HON. JOSEPH R. PITTS, A U.S. REPRESENTATIVE FROM 
  THE STATE OF PENNSYLVANIA, MEMBER, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

    Representative Pitts. Yes, Mr. Chairman. Thank you very 
much. And thank you, Mr. Chairman, for holding this important 
hearing on China's future legal development.
    I remain disturbed about the negative trends on human 
rights issues in China prior to the Olympic Games in August. 
Many thought the Chinese Government would understand that with 
a brighter spotlight on its treatment of its citizens, the 
officials would take this opportunity to allow for more freedom 
for journalists, lawyers, and human rights advocates. There 
were positive steps in relation to allowing reporting on the 
tragic earthquake in China, and this led to much international 
sympathy and humanitarian and disaster assistance. However, the 
general trends are disturbing as there is increased harassment 
of religious leaders and practitioners and others. Case in 
point is the May 21, 2008, recording of Chinese consulate 
official Mr. Peng Keyu describing his and other officials' role 
in organizing, in the United States, protests against and 
harassment of Falun Gong members. While this particular 
instance 
focused on Falun Gong, I have received reports of other Chinese 
religious believers or political activists inside the United 
States being harassed and threatened by Chinese Government 
officials. It is indeed a problem when Chinese officials harass 
their own citizens at home and in a nation like ours where rule 
of law is established--it's even more disturbing when the 
Chinese Government hacks the computers of Members of Congress 
who focus on raising awareness of human rights violations 
within China. That does not bode well for the positive 
treatment of the average Chinese citizen who wishes to 
peacefully express his or her social, political, or religious 
views.
    In our previous hearing, I mentioned being encouraged and 
discouraged during countless cycles of two steps forward and 
then three steps backward in terms of the Chinese Government's 
respect for the Chinese people. Sadly, since our February 
hearing, nothing has really changed. I continue to receive 
numerous reports about Chinese officials' actions against North 
Korean refugees, Uighur Muslims in Xinjiang Province, child 
laborers, Tibetans, Catholics loyal to the Vatican, and 
Protestant house church leaders and congregants. In fact, on 
June 1, 2008, government officials detained nine house church 
congregants in Henan Province for providing funds to help 
victims of the earthquake, and in late May, security officials 
confiscated a bank card, a mini-van, Bibles, and Christian 
literature from a house church seminary. It does not appear the 
Chinese security officials are interested in maintaining any 
facade of treating religious believers with respect. There are 
additional reports, including from China Aid Association, that 
the ``Ministry of Public Security has received funding from the 
Chinese Central Government to increase its campaign of 
eradicating house churches throughout China.'' Even further, 
this morning I received a report that a senior house church 
leader, Mr. Zhang Mingxuan, and his interpreter were detained 
today as they traveled to meet with an official from the 
European Union; Pastor Zhang has been beaten, arrested, and 
imprisoned 12 times by Chinese security officials.
    It takes great courage and leadership to challenge the 
Chinese Government's actions and attitudes, even more so when 
the officials break their own laws. Yesterday, the National 
Endowment for Democracy [NED] held an event to honor ``Chinese 
workers, lawyers, and writers working to advance democratic 
values and fundamental rights within China.'' Recipients of the 
NED award included Chen Guangcheng, Teng Biao, Li Heping, Li 
Baiguang, Zhang Jianhong, Yao Fuxing, and Hu Shigen. These 
individuals, our witnesses today, and others who cannot be 
named, are true heroes as they seek to make a better today and 
tomorrow for the people of China.
    I look forward to hearing from our very distinguished 
witnesses and receiving their insights and recommendations on 
steps the U.S. Government should take to further support the 
fundamental rights of the Chinese people.
    With that, I yield back, Mr. Chairman.
    Co-Chairman Dorgan. Congressman Pitts, thank you very much.
    Congressman Honda, do you have an opening statement?
    Representative Honda. Thank you, Mr. Chairman. I don't have 
any comments. I just came to listen to the responses to some of 
the questions that have been posed for the purpose of our 
hearing, what are some of your opinions, your insights as to 
the direction that the PRC should be taking in order to achieve 
the kind of legal development that is expected by us. Welcome 
to the hearing. I look forward with great interest to hearing 
what you have to say from your perspective. I think the other 
question was, what are some of the factors that Western 
analysts, Western minds or observers, frequently overlook and/
or misinterpret? I would like to know that. That would be very 
helpful.
    Co-Chairman Dorgan. Congressman, thank you very much.
    First, we will hear from Han Dongfang, Executive Director 
of the China Labour Bulletin and a moderator at Radio Free 
Asia. A 26-year-old railway electrician, he emerged as the 
leader of China's first independent labor union since 1949, the 
Beijing Workers Autonomous Federation, during the 1989 
Tiananmen Democracy Movement.
    After the crackdown in Beijing on June 4, Han learned that 
he was on the government's Most Wanted list, and on June 19 
turned himself in to police. He was never tried or sentenced, 
but he was jailed for 22 months before being released to seek 
medical treatment in the United States for health problems 
contracted in prison.
    Since 1997, he has hosted an influential weekly call-in 
show on Radio Free Asia that reaches an estimated 43 million 
people in China. He has tried to go back to China but has been 
prevented and stopped from doing so. He continues to be in 
daily contact by phone and e-mail with workers in China.
    Mr. Han, thank you very much for being here, and thank you 
for the work you've done on behalf of workers' freedom and 
workers' rights. You may proceed.

  STATEMENT OF HAN DONGFANG, EXECUTIVE DIRECTOR, CHINA LABOUR 
                            BULLETIN

    Mr. Han. Thank you, Mr. Chairman. Just for the record, I'm 
not 26 anymore. [Laughter.]
    Co-Chairman Dorgan. We'll stipulate for the record that 
you're older than you were in Tiananmen Square.
    Mr. Han.  Thank you. Thank you.
    Actually, just about two weeks ago on my radio program I 
had a victim, an earthquake victim, calling me from Sichuan 
Province. His daughter just died, 16-year-old daughter. When 
the mother, 16 years ago, was giving birth to this girl, she 
died, so this man raised the daughter on his own. 
Unfortunately, the daughter died in the earthquake. But when 
the father went to the collapsed school, he saw the main beam 
of this building and inside there are these big rocks, that 
big, everywhere. That's the main reason the whole building 
collapsed.
    This guy was crying on the other end of the telephone line. 
He finally said, ``I'm going to spend the rest of my life 
looking for justice for my daughter, and the government is not 
going to do that. The government is not going to respect the 
law, to hold somebody responsible for this collapsing building, 
and I am going to have my private law created and I'm going to 
find those people who were responsible and I'm going to kill 
them myself.'' So as a person talking to somebody over the air, 
it's not easy to listen to this kind of comment in this kind of 
a situation.
    So the only thing I can do is try to calm him down. I said, 
``Please, this is not the solution, you kill somebody. What if 
you find something wrong? What if I have some other radio 
listeners, they are lawyers, and they can provide you some 
free-of-charge legal advice, even legal help to go through a 
legal procedure to, for example, make a lawsuit if you collect 
enough evidence? '' So that was very useful and he calmed down. 
He said, ``Please, if there is any lawyer who would like to 
help me, I would like to go through the legal procedure.''
    So the reason I'm telling this story is, in China, people 
don't trust the law. The biggest law-breaker is the government, 
the judges. The judges don't take these cases, particularly 
local government officials. They don't like these cases and 
they just reject these cases. If people don't trust the law, no 
matter how many laws you can produce, it doesn't work. So from 
this case, fortunately this guy took my advice and will go 
through the legal procedure. But there are many people in this 
country that lost land and they have no compensation. You have 
millions of people in the countryside in that situation that 
have no faith in the legal system.
    I believe, particularly after the earthquake, this quake 
really shook everything differently than before. I watched 
three times the State Council press conference and I could hear 
from those people, it sounds like their conscience is being 
shaken out. When they saw these shocking pictures and they 
started asking questions, what are we going to do to deal with 
these things, from watching the State Council press conference 
I saw even high-level government officials, and they start 
thinking how to go through this reconstruction process and 
getting some more people's trust.
    Also after the earthquake, the Premier, Wen Jiabao, went to 
Sichuan three times. He really gained a lot of trust from 
people. But when I saw this guy flying around, walking the 
water, I mean, people now respect him as they respect God. I'm 
asking myself the question, this guy gained too much respect, 
he's over-respected. He gained too much respect for the party 
as well. After this earthquake when the rebuilding process 
began, the corrupt local government officials who were not 
learning the lesson overnight because of the sad pictures, 
they're going to steal the money for rebuilding, for 
reconstruction.
    How much Premier Wen Jiabao gained the trust from the 
people, that will be as a double-edged sword. The Communist 
Party has to deliver that much respect. I am sure the corrupt 
local government officials will not be able to deliver what the 
Premier has claimed, so there will be a big clash between 
people's expectation and the corrupt government officials' 
behavior. So I put a really big wish on if we have enough legal 
assistance, and also the news information provided to people, 
stations like Voice of America, Radio Free Asia. These news 
media groups can continue their great work to speak ideas to 
these people, peaceful approaches, and to help civil society to 
grow in my country.
    Second, we have our lawyers in China. My organization is 
also helping the workers to make lawsuits to claim compensation 
from employers when they got sick from their work. As well as 
like these earthquake reconstruction processes. There are 
people who will need legal assistance. If we have enough legal 
assistance, concretely providing lawyers to people and to have 
these people able to claim their compensation, claim their 
legal rights through a legal procedure, as I said earlier, no 
matter how many laws you produce, if people don't trust them, 
people don't use them, or people cannot afford to use them, 
that doesn't work.
    There's no legal system, no rule of law that can be built 
in any country without people trusting the law and people 
having the ability to use the law. Therefore, again, I really 
recommend that the U.S. Government and this country--the United 
States--really strongly support the freedom media in China, and 
also provide legal help to those people who need lawyers in 
China. Thank you.
    [The prepared statement of Mr. Han appears in the 
appendix.]
    Co-Chairman Dorgan. Thank you very much for your testimony. 
We appreciate hearing your perspective on these issues.
    We've been joined by Congressman Chris Smith. Mr. Smith, do 
you have an opening statement?
    Representative Smith of New Jersey. I do. I apologize for 
my lateness. I was unavoidably detained. The Prime Minister of 
Kenya is in town and we had a meeting that was set prior to 
this, so I apologize for that.

 STATEMENT OF HON. CHRISTOPHER H. SMITH, A U.S. REPRESENTATIVE 
FROM NEW JERSEY, MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Smith of New Jersey. Let me just say thank 
you for holding this very important hearing, Mr. Chairman. 
Early in the 1990s before the permanent normal trade relations 
[PNTR] debate, while we still called it most-favored nation 
[MFN], most of the so-called experts told Congress that global 
free trade and the laws of economics would irresistibly lead to 
the rule of law of China. Now we know that these so-called 
experts were wrong. In fact, the decisive factor has been the 
Chinese Communist Party leaders, and they have crushed moving 
toward the rule of law.
    Trade was a tool that we had to influence them to accept 
the rule of law, and we gave that tool away, squandered it, 
when we brought China into the World Trade Organization with no 
linkages whatsoever to demonstrable progress in human rights. 
The result has been ominous: a government that advances toward 
the rule of law in commercial matters, at least sometimes, 
while it moves backward in its respect for fundamental human 
rights; a government that comments an economic giant, while 
remaining itself a human rights pariah state.
    Still, it leaves two levers remaining to us to influence 
the Chinese leaders: speaking the truth about their regime and 
disseminating the truth to the Chinese people by means of the 
Internet. As to speaking the truth, we don't do this often 
enough. Often the truth of the Chinese Government's actions is 
so shocking that we can hardly grasp it, or prefer not to think 
about it.
    Last night at a National Endowment for Democracy awards 
ceremony where I was one of the presenters, I met some old 
friends, a group of heroic Chinese human rights activists. One 
of the activists we honored who could not be there because he 
was sitting in a Chinese prison was Chen Guangcheng.
    Chen filed a class action lawsuit, using the rule of law, 
against the Chinese Government on behalf of thousands of women 
from Yinye, a single city in Shandong Province. These women 
were subject to the crime of forced abortion. For his lawsuit 
and for an interview he gave about Yinye to Time Magazine in 
2005, he was placed under house arrest, he was beaten, and now 
he's serving a four-year prison term.
    If Chen can speak the truth inside of China and pay a price 
like that, like many of our witnesses here today have done 
before him, I think we must do a better job of speaking truth 
to this unjust power. They have to know that we mean business, 
and that someday the perpetrators of these crimes will be held 
to account. What is the truth about the one-child-per-couple 
policy, to take only one of the Chinese Government's human 
rights outrages?
    The truth is that most women in China are limited to 
bearing just one child and that the government coerces 
compliance with this by mandatory monitoring of all Chinese 
women's reproductive cycles, mandatory contraception, mandatory 
birth permits--imagine, you have to ask for permission to have 
a child--mandatory sterilizations, and/or contraceptive 
implantation against their will, and government control of 
birth spacing, all part of a national plan to complete the 
local birth target numbers.
    That compliance with this policy is coerced by forced 
abortion, draconian fines which could be up to 10 times the 
average Chinese annual income--that is both husband and wife--
and it includes the bulldozing of homes, placing incredible 
social pressure to force women to abort by punishing their 
families, workgroups, and villages for their pregnancies, and 
by denying unlicensed children healthcare and education.
    When we watch the opening ceremonies of the Olympics, Mr. 
Chairman, which will be replete with smiling young people 
dancing and waving flags, ask yourselves, where are their 
brothers and sisters? In the land of the one child per couple, 
they have been killed. Brothers and sisters are illegal in 
China. The truth is also that this evil system violates the 
Universal Declaration of Human Rights, the International 
Covenant on Economic, Social, and Cultural Rights, the 1994 
Program of Action of the Cairo International Conference on 
Population, and the 1995 Beijing Declaration and U.N. 
Declaration on the Rights of the Child.
    As to the second tool, using the Internet to disseminate 
the truth inside of China, I want to mention very briefly the 
Global Online Freedom Act, which would prevent U.S. high-tech 
companies from turning over to the Chinese police information 
that identifies individual Internet users and to require them 
to disclose how the Chinese version of their search engine 
censors the Internet. In October, the Foreign Affairs Committee 
approved my bill and we are hoping to move it to the floor of 
the House soon.
    I want to mention the exciting firewall-busting technology 
that a group of dedicated Chinese human rights activities are 
promoting. They have technology that enables users in China to 
bypass the Chinese Government's so-called Golden Shield 
censorship effort and surf the Internet freely.
    With this technology which has been demonstrated to me in 
my office, Chinese users can visit the same Internet you and I 
do and there is nothing the Chinese Government can do about it. 
I think we should all ask the State Department to support this 
technology which could produce a human rights and rule of law 
revolution in China.
    Again, I thank you so much, Mr. Chairman, for calling this 
timely and important hearing, and yield back the balance of my 
time.
    Co-Chairman Dorgan. Congressman Smith, thank you very much.
    We've been joined by Congressman Levin, who is the Chairman 
of our Commission. I indicated that he was at a markup of 
legislation in the Ways and Means Committee, but he is now here 
and we appreciate him being here.
    I have to leave for something on the Senate side, but what 
I want to do, is I want to introduce our next witness and then 
turn the remainder of the hearing over to Congressman Levin. 
Again, let me say that the four witnesses who have come here 
today are people of great courage. They've demonstrated that 
courage in many ways.
    Our next witness is Wang Tiancheng. He is the Visiting 
Scholar at the Center for the Study of Human Rights at Columbia 
University Law School. He earned his bachelor of arts from 
Hunan Normal University and his law degree from Peking 
University, where he served as law lecturer. He was active in 
the 1989 Pro-Democracy Movement and was imprisoned without 
trial, serving one-and-a-half years in a reeducation through 
labor camp.
    Upon release he helped found an independent political 
party, the Liberal and Democratic Party of China, and was 
involved in the Free Labor Union of China. He was quickly 
detained again in 1991, and along with his friend Hu Shigen, 
was charged with ``actively taking part in a 
counterrevolutionary group'' and ``carrying out 
counterrevolutionary propaganda and incitement.'' He was 
sentenced to five years in prison. He served his five-year 
prison term and was released in 1997.
    He continues to play a very active role in speaking out 
about 
politically sensitive issues and has published influential and 
prize-winning papers on the rule of law, federalism, and 
constitutionalism in China, and has called publicly for a 
reconsideration of the government policies on Tibet.
    Let me thank you very much for being with us, and you may 
proceed with your testimony.

   STATEMENT OF WANG TIANCHENG, BEIJING SCHOLAR AND FOUNDER, 
             LIBERAL AND DEMOCRATIC PARTY OF CHINA

    Mr. Wang.  Thank you.
    In terms of the legal system in China, we face three very 
serious problems. First, there are lots of laws and systems 
which deprive human rights, basic rights. They are passed to 
take away basic rights. Second, the judiciary is not 
independent and is controlled by the Communist Party. Third, 
the government, as the law enforcement agency, does not receive 
outside supervision.
    Those three issues are the products of the one-party 
autocratic political system. The largest obstacle to China in 
establishing the rule of law and ensuring human rights is the 
one-party autocratic political system.
    How to facilitate the transformation of the political 
system, I think is the key issue. I don't believe that small 
changes in Chinese law will eventually lead to the 
democratization of China. If the political system is not 
changed, I don't believe that the rule of law will come.
    I think the greatest impetus for accelerating the reform of 
Chinese law in the direction of guaranteeing human rights is 
the people's dissatisfaction with reality and the increase in 
the desire and call for democracy, human rights, and the rule 
of law. The pressure from the international community is also 
very important. It does make a difference.
    Here, I have four suggestions. First, I hope the American 
Government and the international community could urge the 
Chinese Government to ratify the International Covenant on 
Civil and Political Rights. The Chinese Government signed this 
covenant in 1998, 10 years ago. But up to now, today, the 
covenant is not on the agenda of the National People's Congress 
of China. I hope that we could urge the Chinese Government and 
we could ask the Congress of China to ratify the covenant, make 
the covenant a part of Chinese law. Then we can request that 
all the laws that conflict with the covenant be changed or 
amended.
    My second suggestion. I think, of course, it is very 
important to follow individual cases of human rights abuses, 
but we should also pay attention to the related laws and 
provisions. If the laws and system do not change, the Chinese 
Government's softening or changing on certain individual cases, 
do not mean improvement of the situation of human rights in 
China, because similar abuses still do occur.
    Third, I hope particular attention can be paid to the 
following laws and systems: the assembly and demonstration law; 
provision in the criminal law related to the crimes of plotting 
to subvert state power and incite subversion of state power; 
the regulations on religious affairs issued by China's State 
Council; the reeducation through labor system; the situation in 
the custody houses.
    The fourth suggestion is to urge the Chinese Government to 
establish an effective system for reviewing the 
constitutionality of laws. That is to say, give people the 
right to challenge unconstitutional laws in courts.
    One last statement. Having the Chinese Government accept 
these criticisms and demands is certainly not easy, but I 
believe that unremitting criticism and pressure will eventually 
obtain results and benefit the facilitation of democratization 
in China.
    Thank you.
    [The prepared statement of Mr. Wang appears in the 
appendix.]

 STATEMENT OF HON. SANDER M. LEVIN, A U.S. REPRESENTATIVE FROM 
MICHIGAN, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Levin [presiding]. Thank you very much.
    I'm sorry that I missed Han Dongfang's testimony--though I 
had a chance to look at your statement. I think of the four of 
you here who have been so instrumental in bringing these issues 
to the fore, you are the only member of the distinguished panel 
whom I had a chance to meet before, many years ago. I regret 
that the Ways and Means Committee called a markup that 
conflicts with this hearing, and I may have to leave to vote on 
some amendments, but my colleagues will carry on.
    The concern that exists among the five of us, and other 
members of the Commission, both Executive and Congressional, 
are widely shared in this Congress. I expect that there will be 
more and more interest in this as the Olympic Games come 
closer, though it's really only an opportunity--and I don't 
know that we need the Games--to raise these issues.
    As we all know, this Commission was created by Congress and 
the President with considerable discussion, now, about eight 
years ago. The purpose was to monitor and to report on China's 
compliance with international human rights standards, including 
worker rights and the development of the rule of law.
    We held a hearing just a few months ago here that 
documented the commitments that China made in connection with 
its Olympics bid and in its preparations for the 2008 Summer 
Games. That's why we often refer to these commitments--because 
they were a necessary prelude to the determination that China, 
and Beijing specifically, would host the Olympics.
    There's a full transcript of that February hearing 
available at the back of this room, and I hope that you will 
all take a copy of it. I think when you look at those 
commitments, and we hear from you and others of China's failure 
to meet these commitments, you will see why it's important to 
look at them, and why we say today that the record is highly 
disappointing.
    There is the new Regulation on Open Government Information, 
and we hope that it will be implemented. But let me just say, 
it's not really clear at this time what factors will set the 
course of China's future legal development. That is why we are 
so privileged to hear from you today, because the future is so 
uncertain. How much it will diverge from the past and improve 
on the past is unclear.
    When we talk about true rule of law, we're not talking 
mainly about documents that have been stamped with the word 
``law.'' We're talking about how there is or is not effective 
implementation. What appears to be occurring in this area is 
that there is a huge credibility gap in terms of what is 
stamped as law and what is real.
    In our last annual report, the Commission noted four 
factors that appear to be highly influential in determining the 
course of China's future legal development. Just quickly, let 
me review them. First, China's leaders' increasing intolerance 
of citizen activism, which you have commented on, and will 
comment on. Second, and increasingly obvious, the manipulation 
of law for politically expedient purposes. Third, a concerted 
effort to ensure that sensitive disputes do not enter legal 
channels that lead to Beijing, thereby insulating the central 
government from the backlash of national policy problems. We 
have seen a good measure of that in recent months. Fourth, the 
growing impact outside of China of its domestic problems of 
implementation.
    So we're privileged today to have the four of you to talk 
to us about your first-hand experience. That's what this 
hearing is really all about. You've been on the ground.
    So thank you to the two of you who have testified so far. 
Now we are privileged to have the testimony of the Director of 
the China Internet Project. I remember when I was in China some 
years ago, meeting mostly with younger--though not all were 
younger--citizens of China who told me about the development of 
the Internet there, and how it was going to change, hopefully, 
and dramatically perhaps, the dynamics within China.
    So we're privileged to hear from Xiao Qiang, who, as I 
said, is the Director of the China Internet Project and who 
became a full-time human rights activist after the events in 
Tiananmen Square.
    So, welcome. We look forward to your testimony.

STATEMENT OF XIAO QIANG, DIRECTOR, THE CHINA INTERNET PROJECT, 
               UNIVERSITY OF CALIFORNIA-BERKELEY

    Mr. Xiao.  Thank you. It is a privilege to be here in front 
of the Commission again.
    I am the Director of the China Internet Project and the 
founder of China Digital Times, which is a Chinese news portal. 
My research and writing are largely focused on the political 
and social impact of the Internet in the People's Republic of 
China.
    I often describe the online censorship, the firewall that 
is sometimes called the Golden Shield Project of the Chinese 
Ministry of Public Security, as the largest obstacle that we 
are facing to promote the freedom of speech in China.
    In my past testimonies I have written about how exactly 
that censorship has been practiced and implemented, and that 
situation has not changed. China has the world's largest, most 
sophisticated censorship system, both humanly and 
technologically. It has been only increasing in past years, 
leading to the Olympics and beyond. That is a part of the 
story.
    Another part we have constantly heard from the press is the 
growth of China's Internet. Now China is the largest Internet 
market in the world, and has more users than the United States. 
It has surpassed the United States. If we counted the more than 
485 million wireless cell phone users, China is a seriously 
wired country and still has room to grow.
    So we are often facing these two fundamental questions. 
One, is we do see the growing use of the Internet. In my 
written testimony I described how that has impacted Chinese 
society.
    But then we also see this increase in censorship and the 
government still has very effective control over the online 
media space. How do we read that? How do we interpret that? 
What does that mean for China's rule of law, legal development, 
political transformation, and relationship to the world? These 
are very key questions.
    In my written testimony I gave three examples of very 
prominent online cases that happened in the last year. Two of 
the three are positive examples about how rising online public 
opinion and increasing civic engagement facilitated by the 
Internet, actually caused some impact and changes in those 
individual cases, whether it's raising the right consciousness 
or actually changing government policy or implementation, such 
as in Shanxi Province--the Brick Kiln Case.
    But then I also gave another strong case, that of a large 
demonstration that was caused by corruption and financial 
scandal of a local government, the news affected tens of 
thousands of people, but the news was completely suppressed on 
the Internet. That was just an example.
    The whole picture is described as such. The Chinese 
Government is capable to this day to effectively control the 
Internet, particularly on the issues of directly, openly 
challenging the legitimate state of the Communist Party. On the 
issues like massive, collective action--protests--information 
such as this can possibly propagate through the Internet, and 
communicate and connect with other protesters. That kind of 
information is being suppressed the most harshly online.
    The only way to sort of address that is, because the 
Internet after all is not just within China, it is across the 
boundary, therefore they oversee servers and blogs and Web 
sites and news reports to, at least to a certain degree, keep 
those stories alive and coming back to China if we can 
penetrate that firewall.
    But while the Chinese Government can no more control the 
information absolutely, there are increasing spaces for the 
ordinary citizens to participate in the political life and in 
raising their concerns in the following areas. In areas in the 
Chinese Government, different agencies have different 
interests. The central government and the local government have 
different interests.
    When those interests are sometimes competitive and in 
conflict, there is often a time gap between when the central 
authorities can send directives to censorship and the local, 
special government agencies feel uncomfortable with that 
information. There is often a gap in the time of the incidents. 
When that happens, that gives the Internet, online citizens, an 
opportunity to raise their issues.
    In the cases I pointed to in that category, which is a 
local action being aggregated through the Internet, it is 
sometimes a matter of hours, sometimes a matter of days of the 
gap. Then it is very possible when those cases are resident to 
the larger national online participants that they become a 
national event. In some cases, even the Chinese national press 
will catch that news to make a further case. Most of them, we 
can describe as citizenry engagement to call for more 
accountable government, to make the government more responsive 
to the citizens' demands.
    I am afraid to say, if you watch the year of 2007 until 
now, there is not any other sign that the Chinese central 
leadership has an agenda for political reform. All of their 
domestic policies, and internationally, can be clearly 
described as prolonging the monopoly of the political power and 
there is no sign of reform, except the Internet from the bottom 
up. Whenever those conflicts of interest exist, whenever there 
is sometimes a gap that they cannot completely control, you see 
there are rising citizen efforts to moving things forward 
incrementally.
    So let me just conclude and actually echo what Congressman 
Smith said. Speaking truth to the power of the Chinese citizens 
is an increasing activity facilitated by the Internet. To help 
the circumvention of information, to circumvent the great 
firewall, is definitely a priority in terms of promoting 
freedom of speech, rule of law, holding the government more 
accountable, and political reform in the People's Republic of 
China.
    Finally, that is also providing an incredible window for 
the outside world to understand China better. But what is 
happening on China's Internet, because of the censorship and 
because of the incredible energy and fast changes, it requires 
a much closer look and understanding of the situation. The 
over-simplistic, optimistic, or pessimistic interpretation, I'm 
afraid, will miss that picture.
    [The prepared statement of Mr. Xiao appears in the 
appendix.]
    Chairman Levin. Thank you. We're anxious to throw some 
questions at all of you, but before we do that, let me 
reintroduce Bob Fu, who is the Director of the China Aid 
Association [CAA], and was very active in the student Democracy 
Movement at Tiananmen Square. He has in recent years been 
involved in religious activities, and I think you were jailed 
as a result 12 years ago. After you were released you came to 
this country and studied theology here, and now you're director 
of CAA, where you monitor and write reports on religious 
activities in China.
    So we're very anxious to hear from you, and thank you very 
much for your years and years of activity. So, take over if you 
would.

     STATEMENT OF BOB FU, PRESIDENT, CHINA AID ASSOCIATION

    Mr. Fu.  Thank you, Mr. Chairman, distinguished 
Commissioners, Congressman Smith, Congressman Pitts, and 
Congressman Honda.
    Please forgive my Chinglish--Chinese English--if I 
misspelled something because I had little sleep last night. I 
had to deal with the arrest of this house church leader, Pastor 
Zhang Mingxuan, who was kidnapped on the bus in the early 
morning while he was on the way to meet with a member of the 
European Parliament, Dr. Belda, who is in charge of China 
Affairs. He just made a request to visit Pastor Zhang, who's 
the chairman of the Chinese House Church Alliance. On his way 
on the bus, he and his translator were both abducted and then 
put into detention in Shangyushu PSB office, the Public 
Security Office in the Haidan District, up until now.
    Let me, before I talk about the pre-Olympics assessment and 
the religious persecution situation in China, I want to note 
that despite Article 36 of the Chinese Constitution which 
guarantees citizens religious freedom, and despite the 2005 
religious regulations in which it encouraged or prescribed some 
qualifications for religious institutions to be registered, in 
China up until today, after 50 years of political and economic 
development, Chinese citizens only have very limited freedom of 
religious belief but have little freedom of the manifestation, 
or practice, of their religious belief.
    The vast majority of the religious institutions and 
religious believers have been discriminated against, have been 
persecuted, by and large. Religious discrimination, in 
particular against children under 18 years old, has been 
enormous. These children have basically been forbidden to 
receive any religious education, even within the government-
sanctioned religious bodies.
    In recent years, of course, the name of the rule of law, or 
rule by the law, in spite of these different regulations that 
were passed on religious affairs, the persecution has been even 
increased. Just with the approach of the Beijing 2008 Olympic 
Games, we find that it has been accompanied with, instead of 
even a saving-face approach as we all thought the Chinese 
Government would take some measures to reduce some level of 
persecution, on the contrary, it has been accompanied by a 
significant deterioration in religious freedom for China's 
independent religious organizations, institutions, especially 
the targeted campaign against the unregistered Protestant and 
Catholic house churches.
    In May 2008, two independent sources informed the China Aid 
Association that the Ministry of Public Security has received 
special funding from the central government to increase its 
campaign of eradicating house churches throughout China. On May 
28, an official Chinese Government Web site has already 
reported that on May 28 of this year the City of Beijing 
conducted a special meeting, convened by the Deputy Mayor of 
Beijing, to launch a so-called special struggle against illegal 
Christian activities, the fandui jidujiao fefa huodeng 
zhuanxiang douzheng.
    So the horrible abuse of religious believers continues and 
raids against Christian meetings continue to take place. 
Persecution includes the largest mass sentencing of house 
church leaders in 25 years and a level of expulsion of foreign 
Christians from China not seen since 1953, with targeted 
repression of a particular Chinese house church group called 
the Chinese House Church Alliance, as its chairman is still in 
detention this morning.
    Also, reports have been received of planned intensified 
persecution with greater control and prevention of large 
Christian gatherings is also anticipated. It is further feared 
that harsher persecution will take place even after the 
Olympics.
    If you want me to name some changes, some positive changes, 
if you can call it that, I could say these changes only happen 
tactically. They only happened from the strategy of how to get 
rid of religion overall in the 1960s, to now this strategy on 
how to control religion and how to control religion in the name 
of these regulations and the law.
    The named charges against religious believers changed from 
counterrevolutionary in the 1950s, to disturbing social order 
and social stability in the 1980s, to the so-called ``evil 
cult'' charges in the 1990s, to now actually other criminal 
charges, including separatism, including using illegal business 
operations, and these types of criminal charges that have never 
been used before but now are being used more often.
    I want to, in particular, note about the challenges in 
light of the rule of law and religious freedom in China. I want 
to particularly point out that a mechanism of the religious 
regulations, the Chinese Government policy to implement their 
religious policy, is a lip-service strategy. On the one hand, 
in 2005 China's new religious regulations suggested that any 
religious institution and religious site can be registered if 
you met certain standards. It's not that the Chinese 
unregistered churches or other religious institutions are 
reluctant or antagonistic by refusing to register, actually, 
it's to the contrary. In recent years, especially these urban 
churches, many of them have been trying in every way to 
register. They file the papers.
    Like, I know of a church in Beijing called the Beijing 
Shouwang Church, with about 1,000 members. They rented their 
facility in an office building and they have been gathering for 
several years already. They have filed their application to the 
Civil Affairs Department and the Religious Affairs Bureau, but 
without even being 
allowed to register. So I want to point out just one thing.
    One thing that really poses, I think, the biggest challenge 
for the rule of law on the religious freedom issue is this 
Zheng Fa Wei, this grand, really politically charged quasi-
legal body called the CCP Political Commission and Legal 
Affairs. Oftentimes, like many other cases, the religious 
persecution cases were brought to the court and oftentimes this 
Zheng Fa Wei body was the final arbitrator of each and every 
case. I have just obtained this one document.
    It is a document called ``the Legal Opinion Regarding the 
Criminal Cases of the Falun Gong,'' issued by the Supreme 
People's Court and the Supreme People's Procuratorate in 
January 2001. This is just one article. I will read it in 
Chinese. It is better to understand for the Chinese audience. 
It said, [Article read in Chinese].
    This opinion basically said, before any court hearing a 
sentence on Falun Gong cases--and of course other religious 
cases applied--the political body, the Zheng Fa Wei, has to 
make coordination and determine even the evidence and make a 
determination between the different law enforcement bodies. So 
to me, we should pursue and call the attention to the Chinese 
Government to clarify the rule, the conflicting rule between 
the court and this body.
    Thank you.
    [The prepared statement of Mr. Fu appears in the appendix.]
    Chairman Levin. Thank you very much.
    We understood when the hearing was organized that one or 
more of you needed to leave here by noon for another hearing, 
so we agreed we'd finish right at noon. That will work out; 
each of us can ask a few questions. I may have to leave after I 
begin the questioning. Just, if each of you will just take five 
minutes. We can just proceed.
    As always, the staff, our excellent and talented staff, has 
prepared a set of questions. If we asked them all, we'd be here 
for hours. So let me just ask you, each of you, to comment on 
this from your perspective. I think it's hard for us in this 
country to really gauge where China is and where the people of 
China are. We read about workers. There is more turbulence 
today than there was 10, 15 years ago, right? As a result, 
there are more people who are arrested. In terms of religious 
activity, there seems to be an increase, and also a change in 
the perspective of the people of China that is hard for us to 
gauge. Then if we take the Internet, you mentioned 400 million 
people online?
    Mr. Xiao.  Cell phones. The Internet is over 220 million.
    Chairman Levin. Two hundred and twenty million. Four 
hundred and some million cell phones. I don't know how you can 
hold people back from hearing news with 400 million cell phones 
working. But it's hard for us to gauge what this is really all 
about with the desire of the government to essentially block 
information flows. Then we have the ability of cell phones to 
use text messages, and it's not really clear how the Chinese 
government intercepts them. So if you would, tell us a little 
bit about where you think the Chinese people are today, and 
what this means for American policy and American efforts, both 
before the Olympics and after. So if you would, just go down 
the line and inform us of your perspective on that. Han 
Dongfang, why don't you start? Just quickly, just take a minute 
or so, because I want to be sure our colleagues each have five 
minutes before you have to leave. Thank you.
    Mr. Han.  Thank you, Congressman. There are more than 
80,000 strikes every year in China. That only counts those 
strikes involving more than 100 people. Those involving 90 
people are not counted. Think about the size. In the whole 
Pearl River Delta area, in that region mainly, foreign 
companies are investing there, the strikes involving more than 
1,000 workers happen at least once a day.
    What the Chinese people are doing, after 30 years of 
economic reform, the market economy now, the government is on 
the one hand pushing for a market economy, and on the other 
hand they don't have political reform. Reflected in the 
workers' rights areas, you don't have workers to organize 
unions, you have no collective bargaining. This can, down that 
way, go too long. Now these workers, there is no strike law and 
the workers are going to the streets. They go strike anyway. So 
that is the nature of workers. If we're not treated well, we go 
together into the streets.
    So now I think the government learned that lesson. They 
fear that. I heard that within a half a year or one year, there 
will be a law to regulate strikes. So mainly we will have a law 
to regulate strikes and the workers will have the right to 
strike. When the strike activities have been legalized, the 
workers can do more because we believe a strike is part of the 
collective bargaining. The collective bargaining tool is a very 
useful tool.
    So from this you can see not only people are waiting for 
the 
government to provide something and the people are reacting and 
people's activities are changing the government's mind-set, so 
therefore I feel very positive in the future that the civil 
society growth, you have a bunch of nice people within the 
government, within the Party, and these people together will 
make a very positive move for the democratic process.
    Also, I believe, don't feel too bad if something happens 
suddenly, because democracy is a process rather than a concrete 
result. Look at this country--the United States. The legal 
system building and democracy development is always as a 
process. I don't think you would say your country has a perfect 
democracy system, not yet. So, I feel positively for my 
country, too.
    Chairman Levin. Okay. Anybody else want to comment on where 
the Chinese people are and how we react to that? Are they text-
messaging each other?
    Mr. Xiao.  They are, a lot. But let me say it this way, how 
to picture China. China has 1.3 billion people. The 200 million 
people on the Internet, you can say essentially are urban 
elite. When I say ``elite,'' they don't necessarily have a 
higher political position but they have certain input to the 
political system. Mostly they're the urban residents. Then you 
have the rest of the Chinese people, talking about 800 million 
or 1 billion, the ones who produce the products. Those are the 
ones who have no right to organize. Those are the ones that do 
not have full status for even living in the city. Those are the 
ones that have no political input to the system whatsoever. 
That is where China's economic competitive advantage comes 
from. They are the ones who suffer most from the environmental 
pollution.
    So from these top nine members of political bureaus and 
under the ruling Communist Party, their central code word is 
control, how to keep the gap between the people who have and 
who have not in the system that actually produces economically, 
but is politically not threatening the monopoly of the power of 
the Communist Party. That's the only secret of China. The human 
rights issues, the rule of law issues, it's all reflected in 
that power relationship.
    The result is, what you can see, is this oscillation 
between the two extremes, the insecurity of the rulers because 
they have this vast base of people who have nothing and the 
arrogance of the rulers because now they're part of a global 
economy and they produce such cheap goods and they're becoming 
a rising power. You see both. You see both phenomena on the 
Internet as well as from the rising citizen participation and 
to the other side of the nationalistic--phobia, which is caused 
also actually by the Internet. I agree with you, we don't know 
where China is going. It could go in either direction.
    Chairman Levin. Thank you.
    Mr. Pitts, take over. Then others will participate. I need 
to go back to the committee. Thank you so much. So, each of you 
take five minutes.
    Representative Pitts [presiding]. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your extremely informative 
testimony and your responses. I found it very interesting that 
there's something like 80,000 strikes of over 100 people, you 
say, of labor-type strikes. I assume that there are other types 
of protests as well, but this is hundreds every single day 
throughout China.
    But thank you for your insight, Mr. Wang, for some very 
specific suggestions that we in Congress should press for. Very 
helpful. And Mr. Xiao, I found your incidents--you mentioned 
three examples of the government controlling the political 
impact of the Internet and I was intrigued especially--well 
China's most incredible mail house was very interesting, 
rescuing children from slave labor in the brick kilns. Then you 
mentioned an ant farmer's protest, a corrupt pyramid scheme. 
I'd be interested in knowing what that means.
    And Mr. Fu, your two pages of recommendations are very 
helpful. I would just like to ask you, and each of you can 
comment if you'd like, in what way specifically has China's 
desire to maintain a positive image for the Olympics led to 
increased censorship of the press, the Internet, and repression 
of human rights? What would be the benefits, if any, of 
President Bush's attending the opening ceremonies of the 
Olympic Games, as he said he will do? What harm, if any, might 
his attendance cause, if you would care to comment on that? You 
can start. We'll just go down the line.
    Mr. Fu.  That's one of the recommendations. I have been 
editing over the years. The vast majority of the Chinese 
independent house churches and other believers, they don't want 
to remain underground. Actually, they want to engage society, 
want to care for the poor, care for the vulnerable, care for 
the needy.
    So one way that I think President Bush or any other senior 
U.S. official and Congressional leaders who visit China could 
benefit, is if you could persistently and firmly request that 
you want to sit in an unregistered church service, you want to 
sit and visit independent religious institutions, you want to 
worship with them. I mean, you don't need to even make a press 
conference or statement.
    I think that shows solidarity with them and that will be a 
huge encouragement. Unfortunately, I found many Western 
diplomats and senior officials had some unfounded fear, like, 
``Oh, we will cause them trouble.'' If the Chinese believers 
and leaders are not afraid to meet and to fellowship together, 
what fear do we need to have?
    Representative Pitts. In the run-up to the Olympics, have 
you seen an increased amount of repression on religious 
liberties?
    Mr. Fu.  Absolutely. I mean, in just the last month, from 
the end of April until now, several thousands of believers in 
the City of Beijing have been raided. Ironically, many of them 
were holding prayer services for the earthquake and organizing 
the relief work when they were raided, when their pulpits were 
knocked down and microphones were taken away from the pastors' 
hands.
    Even on several occasions, as you mentioned, over 10 
believers were arrested because they were traced by their 
donation checks that they sent for relief work just because 
they have the name ``house church'' and they were forced to pay 
a heavy fine.
    Representative Pitts. Thank you.
    Mr. Xiao, any examples of increased repression, and 
positive or negative on President Bush's visit?
    Mr. Xiao.  Well, let's first off say there has been an 
increase in online censorship and control of the media, all the 
way to the Olympics, controlling the image. With the Sichuan 
earthquake, there was a two-week exception but that was because 
of a natural disaster. That window quickly closed.
    On President Bush's visiting China to attend the opening 
ceremony, it certainly is part of the U.S.-China relationship 
that they decided to do that. But there is an important message 
that should not be misinterpreted. While several other 
governments, including the European governments, are 
considering not attending the opening ceremonies because of the 
human rights performance on Tibet and other issues, the United 
States, as a leader of the free world, should not let its own 
visit, its attending, as otherwise. If President Bush is going, 
he needs to express his concerns on the human rights issues in 
China very clearly, otherwise it could be counterproductive.
    Representative Pitts. Thank you.
    Mr. Wang?
    Mr. Wang.  I came to America just several months ago and 
last year I was still in China. Last October, there was a warm-
up race of Olympians in Beijing. I was under house arrest. The 
Olympic Games are a disaster for human rights in China. 
Dissidents, human rights activists, Christian activists, Falun 
Gong practitioners, and thousands of petitioners are being 
suppressed and monitored more heavily than before. I do not 
think the Olympic Games is just a sporting event. I disagree 
with this opinion.
    The Communist Party of China, I think, will benefit a lot 
from the Olympic Games. If leaders of big countries in the 
Western world go to China to celebrate the opening event, it 
will be a great honor for the Communist Party. I can foresee 
that when the Olympics Games are finished, or even ongoing, the 
media is controlled. The media will say, how correct our 
leadership, how great is the Communist Party, it is the best 
time for our country. We should continue on the current path. 
I'm sure they'll say things like this.
    Representative Pitts. Yes.
    Mr. Wang.  Thank you.
    Mr. Han.  Mr. Bush going or not going to the Beijing 
Olympic opening really depends on what kind of message you are 
going to bring, and bring to whom. I'm sure I agree with 
everyone here that the Communist Party will be greatly 
appreciated if President Bush can go, but at the same time I 
heard there are many foreign media, particularly like Voice of 
America and Radio Free Asia, they will go, too. They will send 
their reporters.
    For example, if President Bush goes to Beijing and he can 
give an interview to both Voice of America and Radio Free Asia, 
to use these two free news channels to let the Chinese people 
know that President Bush is there not only for honoring the 
Communist Party and the Chinese Government politically, but is 
also concerned about human rights, and particularly if Mr. Bush 
can particularly discuss with the President of China, even for 
three minutes, about the concern about human rights in China, 
and through these free media deliver that to the Chinese 
people, that will be another way to look at this.
    Therefore, I actually prefer President Bush to go to bring 
this message to the Chinese people rather than staying home. 
The Chinese Government would misinterpret this boycott as 
boycotting the Chinese people.
    Representative Pitts.  Thank you very much.
    In the interest of time, members are invited to submit 
questions for the record to be answered on the record by 
witnesses.
    I will turn to Mr. Honda.
    Representative Honda.  Thank you, Mr. Chairman.
    Given the time I won't ask a question, but I have two 
requests. The discussion from all four of you was very 
enlightening and insightful and provoked a lot of thought for 
me. In this country we have the Foreign Intelligence 
Surveillance Act [FISA] and your country has censorship. One is 
trying to control a democracy that has free speech, but tries 
to understand what's going on in the Internet and dragging 
through it to get information and we're trying to figure out 
how we control that. On the other hand, we have a country 
that's struggling for free speech and other things. So there 
are two countries coming from two different points of view, 
rule of law and rule of man.
    If you wouldn't mind just jotting down some of your 
thoughts on what are lessons that could be learned from these 
two observations, if any. I'd appreciate some comments from 
you.
    The second would be, the comment is, what I hear you saying 
is what reminds me of--and what you're saying is, you have to 
be very careful if you make a move on the Olympics because of 
how it's interpreted by the people who we're supposed to be 
wanting to help versus the image that we create here. So that 
image sort of reminds me of the Chinese character of crisis. 
There's two characters that we all know about, one is danger, 
the other is opportunity. It sounds like you're saying that 
there's an opportunity for us to be able to speak clearly on 
issues that we believe in at a moment of crisis so we can 
probably avoid misunderstanding. But I just have to say that 
your comments fall very heavily on me, and I think that it's 
been very helpful, at least for me. I appreciate your comments 
and your insights.
    Representative Pitts.  Thank you.
    Mr. Smith?
    Representative Smith  of New Jersey. Thank you. Again, in 
the interest of time, let me just collapse several questions, 
and whoever would like to answer them, please do.
    First, I think it is clear, and you might want to comment 
on this, that the intent is to target terrorists. The intent of 
the secret police in China is to find the expression of free 
speech as it relates to democracy building, human rights, and 
religious expression. Even our Global Online Freedom Act makes 
it very clear that that's what we're focusing on, to try to 
open up that part of the Chinese dialogue. Those individuals 
need the ability, without the secret police knocking on that 
door, dragging people off, as all of you have experienced, to a 
very dark night of torture. So, I would just raise that as a 
concern.
    Let me just ask all of you, I held a number of hearings--
and several of you testified--in the past. Mrs. Gao ran a 
family planning program in Fujing Province and got out of the 
country. Harry Wu expedited her coming to the United States. 
She made some very powerful statements about how much power the 
family planning cadres have, far and above most other aspects 
of the secret police, because of this one-child-per-couple 
policy being implemented.
    My question is, what legal rights, what due process rights, 
what rights of appeal does a mother have, or mothers in China 
who are pregnant without government permission and are in the 
process of being coerced into having that child destroyed?
    Second, let me ask the question--and I think this would go 
to Han Dongfang--you mentioned the role of Chinese labor 
unions, the role of NGOs. I think the U.S. Government needs to 
play a more robust role. Last year we--the AFL-CIO, John 
Sweeney--submitted a very powerful Section 301 case to the 
United States Trade Representative [USTR] asking for an 
investigation because of the enormous violations of fundamental 
labor rights in China. A very well-documented piece. Ben Cardin 
and I were the two Congressmen who co-signed this petition. I 
found it appalling that the USTR wouldn't even open up an 
investigation about occupation and safety violations, 
arrearages, and routine violations of labor rights.
    Now, the Chinese individuals are taking great risk, as you 
did, to advance labor rights. It seems to me that there is a 
role that has been missed almost completely by the U.S. 
Government, and many other governments, when they wouldn't even 
investigate that this was an unfair labor practice. So, if you 
might want to touch on the role of U.S. corporations, the role 
of the U.S. Government, I would appreciate it.
    On the Internet, again, the role of U.S. corporations, when 
Google, Yahoo!, Cisco, Microsoft, and others are complicit in 
partnering with the secret police, actually aid and abet the 
censoring--I asked the general counsel from Google, what is it 
that you censor, and he wouldn't tell me in an open hearing 
that I chaired three years ago. We heard a similar lack of 
responses from Yahoo! in a hearing that Mr. Lantos chaired just 
a few months ago.
    It seems to me, if you're going to be part of a system, 
part of 
repression, there needs to be accountability, which is what 
we're trying to get at with the Global Online Freedom Act. So 
perhaps you might want to speak to this with regard to the role 
of U.S. corporations. They want to be on the side of at least 
neutrality, but not complicity with repression.
    Finally, Mr. Fu, on the significant deterioration, I think 
that you bring to this Commission very damaging information, 
that the repression has gotten worse in the run-up to the 
Olympics. We know that cyber dissidents are being hunted down. 
The New York Times did a big story on it in January or 
February.
    But the church people, I mean, what threat do they 
represent to the dictatorship with the run-up to the Olympics? 
Significant deterioration, as you put it. In your 
recommendations, you made several. They're all great. I've read 
them. I think they're outstanding. Would you also add perhaps 
that our office, our ambassador-at-large for the implementation 
of the International Religious Freedom Act [IRFA], needs to 
take China to the penalty phase?
    As we all know, China is a country of particular concern. 
It is deteriorating, as you said. I think that also holds true 
for the Falun Gong, not just the Uighur Christians, as you 
pointed out, but the Uighur Muslims, and so many others. There 
needs to be a penalty phase pursuant to that legislation. 
They're on the list every year. What happens? Nothing. Or at 
least some jaw-boning, but nothing by way of a penalty phase. 
So, perhaps you could add that to your list or might speak to 
it.
    The U.N. Human Rights Council. You mentioned the special 
rapporteur for religious intolerance. Well, the U.N. Human 
Rights Council has as a sitting member in good standing the 
People's Republic of China. What are they doing? They go after 
Israel. They focus like a laser beam on the alleged abuses of 
Israel. But what about the situation in China? They need to be 
held to account in that venue as well. You might want to speak 
to that.
    Representative Honda.  Mr. Chairman, I think two gentlemen 
have to be at another hearing.
    Representative Smith  of New Jersey. I know.
    Representative Honda.  And two could stay. So I was hoping 
that they could respond to your great questions in writing. So, 
we can excuse two of them, and perhaps the other two could 
respond.
    Mr. Xiao.  Can I, briefly? I, unfortunately, need to go to 
the other Commission to answer precisely the same question, the 
Global Internet Freedom. Let me just briefly say, it is 
absolutely necessary to hold those companies more accountable, 
so therefore they're not part of the complicity of the 
censorship.
    Representative Smith  of New Jersey. Thank you.
    Would others like to answer other parts of those questions? 
Yes.
    Mr. Han.  Obviously the Chinese people are acting, and it's 
not that they're just sitting there being exploited, and then 
these strikes and all these things happen. The farmers lost 
land and are not being compensated. They are taking actions, 
too.
    Now, the question is, how can we better the system instead 
of, as I mentioned in the very beginning, the guy who lost his 
daughter and doesn't trust the government, who wants to use his 
own way to solve this problem, instead of having more people go 
that way of finding those who are responsible for the collapse 
of the school buildings and kill them, if we have more 
assistance to those who have no chance to go through the legal 
system, that will be a great help.
    For example, there are many institutions in this country--
the United States--that are really facilitating, supporting the 
democracy movement around the world. I believe these 
institutions, these organizations, their ability needs to be 
boosted up, particularly working on China. China, I believe, 
after the earthquake, after the Olympics, this country goes to 
the direction, there's no return. The government has to be more 
and more open, even sometimes when they make two steps forward 
and one step backward. But there's no way for them to make a 
complete return.
    So if we know this is the direction, the next 5 to 10 years 
will be the critical years for China in where to go. We have to 
jump out from the traditional way of thinking, which is only 
giving the Chinese Government pressure. But now the question 
is, the Chinese people are already standing up. How can we 
better assist the people to act on their own behalf rather than 
make this huge country depend too much on international 
pressure on the Chinese Government.
    In other words, we should really put more trust on the 
Chinese people's power, which is the Chinese Government that 
cares more about them, cares more about them than the 
international pressure.
    Representative Smith  of New Jersey. Mr. Fu?
    Mr. Fu.  Let me make a comment. I totally agree with Mr. 
Han's optimistic tone, that the trend for the next 5 to 10 
years is irreversible. Actually, you answered the question of 
how we accomplished that goal. I have firsthand observation and 
information and documentation indicating that it really takes 
the grassroots citizens, the weakening citizens, and the 
lawyers, the farmers, and these individual church believers 
that are willing to take up the task to bring this injustice, 
through this different--as flawed as it is, the judicial 
system.
    I see we have already won several cases in the court. Two 
cases. Even the labor camp officials came to apologize to these 
unfairly treated or arrested church leaders. So that's some 
progress over there. I think today we have several 
distinguished recipients of the NED award last night. As Dr. Li 
Baiguang described himself like an ant, like a little ant, just 
little things at a time and gradually it's changing.
    To answer your question about the power of family planning 
policy, I had firsthand experience. I remember when I was 
small, my sister-in-law got pregnant with the second child 
accidentally and she fled out of her home. I remember at 
midnight our house was broken into. These birth planning 
officials just took away my brother and put a big bag, what do 
you call it? A hood. And grabbed him and turned off the lights 
and just had three or four, used a big stick just to beat him 
up.
    There's no appeal process. There's no one to whom you can 
file any complaint. They're almost outside the judicial system, 
with a super-ultra body with unlimited power to punish, to 
confiscate your property, they can destroy your own house and 
confiscate your cows, if you're farmers. In many cases, that's 
the only available items.
    I think that is a very outrageous--for development of the 
rule of law. I, again, agree with Mr. Han about how, in the 
free world, instead of just the pressure, we should also 
empower--how to empower these human rights lawyers, how to use 
every tool at our disposal to help them, to equip them, to 
really encourage them by visiting them, hug them, send them a 
letter.
    Representative Smith  of New Jersey. Mr. Fu, thank you very 
much.
    Can I ask, if it's not too personal, what happened to your 
sister? Was she forcibly aborted?
    Mr. Fu.  No. She actually was able to hide in a cave and 
had the second daughter born.
    Representative Smith  of New Jersey. Let me just say, and 
this Commission I believe as well as the Congress, we all need 
to do more to bring more focus to that outrage. We know now 
beyond any reasonable doubt that there are huge numbers of 
missing girls. Not only are women being violated, men being 
beaten, fathers-in-laws and others are held in custody until 
the woman agrees to a voluntary abortion, but they're missing 
as many as 100 million girls in China. That's the upper 
estimate. The gendercide, which is like genocide, is like the 
forgotten human rights abuse. It's being enabled, like the U.S. 
corporations enable the Internet to do; rather than opening, 
it's closing.
    The U.N. Population Fund and so many others have a hand-in-
glove relationship and are now sharing that outrage with other 
countries, saying you, too, need a one- and two-child-per-
couple policy, and you only get there through coercion and 
through involuntary activities on the part of the government. 
For a dictatorship, it's ready-made. So, I just raise that. Mr. 
Fu, thank you for sharing that personal story which I did not 
know about. Thank you both, and to our other two distinguished 
witnesses.
    Mr. Pitts?
    Representative Pitts.  Thank you. You've been bombarded 
with questions in a very short period of time. You can submit 
further answers for the record. That would be very much 
appreciated. But you have given us a lot of very informative 
information, very helpful information. We thank the witnesses, 
we thank the members, the staff, and those who've attended.
    We've exceeded our time, so at this time the hearing is 
adjourned. Thank you.
    [Whereupon, at 12:20 p.m. the hearing was adjourned.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Han Dongfang

 The Prospects for Legal Enforcement of Labor Rights in China Today--A 
                            Glass Half Full

                             JUNE 18, 2008

    Everyday in China's manufacturing heartland, the Pearl River Delta, 
there is a strike or some form of labor dispute involving more than one 
thousand workers. At countless other factories in the region there are 
smaller disputes over low wages, non-payment of wages, overtime and 
benefits or management abuse and exploitation. Strikes and work 
stoppages are part of daily life in the Pearl River Delta. This is in 
spite of the fact that, under the current constitution of the People's 
Republic of China (PRC), workers do not have the right to strike. The 
daily strikes and protests have forced legislators in the delta boom 
town of Shenzhen to take a long hard look at local labor legislation 
and amend it in an attempt to placate the demands and grievances of 
ordinary workers.
    In June this year, the standing committee of the municipal people's 
congress issued ``Draft Regulations on the Growth and Development of 
Harmonious Labor Relations in Shenzhen Special Economic Zone.'' They 
represent a significant step toward redressing the current huge 
imbalance of power between labor and management in the region. In 
particular, the regulations stipulate that when a major strike breaks 
out, the government can order management not to take any action for a 
period of 30 days that is liable to exacerbate the dispute. As a local 
labor union official in Guangdong Province has pointed out in a recent 
article in the New Express newspaper, by clearly stipulating the rights 
and obligations of employers and workers, these Draft Regulations bring 
strike action within the scope of legal regulation, and as such, the 
legal right to strike is now ``only one step away.''

                    THE ROLE OF CHINA'S LABOR UNION

    The pressure of workers' actions is changing the legislative 
landscape in China. Laws are being amended to better serve workers' 
interests. However, simply changing the law is not enough. For China's 
legal system to really develop, the law must be enforced, and workers 
must be allowed to exercise their legal rights to actively participate 
in the legal process. The new Labor Contract Law gives prominence to 
the use of collective labor contracts as a means of fostering more 
harmonious labor relations in the workplace. There is a crucial role to 
be played here by China's sole legally permitted union, the All China 
Federation of Trade Unions (ACFTU), in both ensuring the law is 
respected and implemented, and in bringing workers into the negotiation 
process for collective labor contracts--factory-wide, legally binding 
contracts covering the wages, overtime payments and benefits of all 
employees.
    Unfortunately, the ACFTU has so far been more focused on fulfilling 
quotas and meeting targets than in effectively representing workers, 
and has tended to impose collective labor contracts in a top-down 
manner and with little regard for the actual needs and conditions of 
the enterprise concerned. However, at the local level, there are ACFTU 
officials--people who have the difficult job of actually ensuring 
greater social and political stability at the grassroots level--who 
realize that developing worker participation in the negotiation process 
is the only effective way of ensuring that a collective labor contract 
has any real meaning. They understand that if the workers are not 
involved, the contract cannot reflect their demands and therefore will 
do little, if anything, to address or resolve problems on the factory 
floor.
    By actively encouraging worker participation, the ACFTU would both 
improve its own, currently very limited, credibility as a genuinely 
representative workers' organization, and help develop respect for and 
confidence in the law among workers. The PRC has a wide range of labor 
legislation dating back to the 1992 Trade Union Law and the 1995 Labor 
Law, which give China's workers basic legal rights. These rights have 
been enhanced by the new Employment Promotion Law and Labor Contract 
Law, both of which went into effect on January 1, 2008, and by the 
Labor Dispute Mediation and Arbitration Law, which was enacted on May 
1, 2008. The promulgation of three major labor laws in one year 
indicates just how effective worker action has been in forcing the 
government's hand. These laws have not been introduced because the 
government is particularly enlightened, but because workers' strikes 
and protests against widespread and continued rights violations left 
the government with no option but to change the law, as a means of 
forestalling increased labor conflict. In other words, China's emerging 
labor movement, although still spontaneous and unorganized, is already 
acting as a positive force for change.

            CHANGING THE LEGISLATIVE LANDSCAPE ACROSS CHINA

    It is not just at the national level and in relatively progressive 
areas such as Shenzhen where the legislative framework is changing. 
Local and regional governments across China are responding to rapidly 
changing economic and social conditions and workers' demands by 
introducing new labor regulations and provisions 
designed both to protect workers' rights and to improve relations 
between labor and management. The provinces of Hebei, Liaoning, 
Jiangsu, and the cities of Beijing, Shanghai and Shenyang, for example, 
have all recently introduced new regulations on the promotion and 
implementation of collective labor contracts.
    Hebei took the lead in this process by introducing its Regulations 
on Enterprise Collective Consultations between Labor and Management on 
January 3, 2008. The regulations specify that the negotiation process 
between labor and management ``should be open and equal, seeking 
consensus, and giving equal weight to the interests of the enterprise 
and the workers, safeguard workers' actual pay levels, and conform to 
enterprise productivity levels and local economic conditions.'' The 
Shenyang regulations even make it compulsory for employers to accept 
workers' requests to conduct collective negotiations over the terms and 
conditions of employment, and substantial fines are specified for 
companies and CEOs that refuse to do so.
    Significantly, the Hebei regulations explicitly state that where 
there is no labor union at the enterprise, the workers' representatives 
in the negotiations should be ``democratically elected by a majority of 
employees.'' Where there is a labor union, representatives should be 
``recommended'' by the union, and scrutinized by the workers' congress. 
(Currently, the majority of private-sector workplaces still have no 
official union presence.) The regulations outline in detail the scope 
of the negotiations, which focus on wage levels but include a wide-
range of pay and benefit related issues, including methods and times of 
wage payment, subsidies and allowances, holidays, sick leave and 
maternity leave, as well as the length and conditions of renewal of the 
collective labor contract. They specify that the workers' remuneration 
agreed in the collective contract can not be lower than the local 
minimum wage, and that the remuneration specified in individual 
workers' contracts can not be lower than the terms specified in the 
collective contract.

                        LABOR RIGHTS LITIGATION

    The problem for workers in China is not a lack of legislation; it 
is a lack of legal implementation and enforcement. Many workers believe 
that the law only exists on paper and lacks real force to protect their 
rights. In 2003, China Labour Bulletin (CLB) set up its Labor Rights 
Litigation Project, to demonstrate that, even if local government 
agencies are unwilling to enforce the labor laws, ordinary Chinese 
workers can use that legislation to protect their rights in a court of 
law. CLB provides workers with local lawyers to represent them in civil 
and administrative actions against employers and local government 
authorities, or--in cases where worker activists have been detained by 
the police--in mounting an effective court defense for them against the 
criminal charges involved.
    It is often assumed that there is little or no judicial 
independence in China. While this is certainly still true in 
politically sensitive cases, in the majority of labor rights cases, the 
courts nowadays tend to deal with cases impartially and to render 
verdicts on the basis of the law. In many cases, the labor rights 
violations are so blatant and egregious that the judge has no option 
but to rule in favor of the plaintiff. And over the last two years, 
workers, in particular migrant workers, have been winning larger and 
more significant awards. The Shenzhen Commercial Daily reported that on 
October 16, 2007, a 36 year old migrant worker was awarded 440,000 yuan 
(approximately $50,000) in compensation by a court in Shenzhen after 
being paralyzed in an accident on a construction site the previous 
year. The award was more than twice the government's recommended 
compensation for the families of workers killed in coal mining 
accidents. Other recent cases have significantly broadened the scope of 
labor rights litigation. The Southern Daily reported that on October 
22, 2007, a Guangdong court awarded a migrant worker named Song 45,000 
yuan in compensation even though he had signed a contract waiving his 
rights to work-
related compensation. The court deemed the contract to be invalid.
    Probably the most widespread grievance among migrant workers is the 
issue of non-payment of wages. However, workers' attempts to claim 
wages in arrears though the arbitration and court systems have been 
hampered by a common 
misunderstanding of China's Labor Law. Article 82 states that: ``In 
raising an arbitration claim a party should make a written application 
to the Labor Dispute Arbitration Committee within 60 days of when the 
labor dispute first occurred.'' Many legal and government officials 
have assumed this stipulation meant claims for wages in arrears could 
only be for two months at the most. However, according to the Southern 
Workers' Daily, in December 2006, a Shenzhen court awarded a migrant 
worker named Hu two years worth of unpaid overtime wages, totaling more 
than 46,000 yuan.

           FACILITATING MEDIATION, ARBITRATION AND LITIGATION

    The main problem for workers seeking legal redress for violations 
of their rights is not, in most cases, a lack of judicial independence; 
it is simply that they cannot afford a lawyer. As such, CLB is 
committed to paying the legal fees for workers who are unable to pay 
for their own lawyer. Over the last 15 months, CLB has taken on 274 
labor rights cases, and provided about $87,000 in fees to law firms and 
individual lawyers in China who specialize in workplace discrimination 
and work-related injury cases, as well as those handling disputes over 
the non-payment of wages, pension, redundancy and economic compensation 
cases. The great majority of cases concluded have been successful and 
many have resulted in substantial compensation awards for the 
plaintiffs. Over sixty cases have been concluded so far, mostly via 
court litigation, and provisional verdicts and compensation awards have 
been handed down in an additional 104 cases. The worker plaintiffs lost 
in fewer than ten of these cases. In all the rest they won compensation 
for industrial injuries, recovered wages in arrears, gained job 
reinstatement or obtained other benefits such as labor insurance 
payouts. The total amount of compensation (confirmed or provisional) 
and other benefits obtained by workers was 3.8 million yuan (about 
$547,000).
    In addition, CLB last year helped obtain 7.2 million yuan ($1.02 
million) in wages in arrears for about 2,000 construction workers who 
had been staging a week-long public protest. Mediators in the dispute 
not only diffused the protest but successfully negotiated a settlement 
with local government officials, demonstrating that mediation and other 
non-adversarial dispute resolution techniques are just as important as 
litigation in developing a civil society in which legal contracts 
between employers and employees are honored. Indeed, mediation is often 
preferable to litigation, which tends to be a measure of last resort 
used after a labor dispute has become irreconcilable.

            THE KEY ROLE OF NGOS IN CREATING A CIVIL SOCIETY

    The role of non-governmental organizations (NGOs) and civil rights 
groups in China has been, and will continue to be, crucial in the 
development of the country's legal system. The Beijing-based group 
Yirenping, for example, is actively involved in raising awareness of 
HIV/AIDS and Hepatitis B (HBV) discrimination in China. It has 
published a handbook informing people with HBV how to protect their 
rights, it runs an online support group, and most significantly for 
labor rights protection, it intercedes in cases where workers have been 
sacked or refused employment because of their HBV status. Yirenping has 
helped to bring dozens of anti-discrimination lawsuits and has already 
obtained significant compensation awards for the plaintiffs. 
Regrettably, however, many of these compensation awards are subject to 
confidentiality clauses and cannot be made public.
    In addition to winning compensation for individual plaintiffs, 
Yirenping's advocacy has also helped change the legislative landscape. 
On April 2, 2008, a university graduate denied employment at a computer 
firm in Shanghai because of his HBV status was awarded ``satisfactory'' 
compensation through a confidential court-mediated settlement. The same 
day, local media reported that the Shanghai Public Health Bureau had 
stipulated that HBV testing would no longer be routine for prospective 
employees and that the city's medical examination forms were being 
modified accordingly. The bureau added that prospective employees could 
only be tested for HBV if the examinee requested it or if the employer 
proved that the job advertised was legally off-limits to people with 
HBV. China has an estimated 130 million carriers of the HBV virus, so 
these lawsuit-driven reforms have a huge potential impact.
    Earlier, on May 18, 2007, the Ministry for Labor and Social 
Security and the Ministry for Public Health issued a joint circular, 
``Regarding Views on the Protection of HBV Carriers' Right to 
Employment,'' clearly stipulating that apart from specific industries 
where national laws, administrative regulations and Ministry of Health 
regulations have identified a higher risk of transmission of HBV, 
employers cannot refuse to hire, and cannot dismiss, employees on the 
basis of their HBV status. The Employment Promotion Law, which went 
into effect on January 1, 2008, further stipulates that employers 
``cannot reject applicants on the basis of their carrying an infectious 
disease.''

            KEEPING THE SUPPORT AND GOOD WILL OF THE PEOPLE

    It is clear that the Chinese Government has, to some extent, been 
more willing than in previous years to listen to its citizens when they 
voice dissatisfaction and grievances, and to make changes to the law 
designed to enhance and safeguard their legal rights. In the wake of 
the terrible earthquake of May 12 this year, the government has 
garnered a tremendous amount of good will from the Chinese people. It 
is imperative that Beijing maintains and utilizes that good will by 
making sure its citizens are included in the future development of 
civil society. In other words, the government must seek to strike a 
better balance between the need for economic growth and the interests 
of social justice.
    In the area of labor rights, this means workers exercising their 
rights by establishing genuinely representative labor organizations and 
participating in collective bargaining with management. On an 
individual level, workers must be encouraged and assisted to use the 
existing and wide-ranging canon of labor legislation in China to demand 
mediation or arbitration or to bring law suits against employers for 
violations of their rights. In addition, the active support and 
involvement of civil rights groups in defending workers rights will be 
crucial in the development of a functioning civil society in China.
    Several questions remain. How can China establish the nuts and 
bolts of a genuine collective bargaining system? Will that system allow 
workers to negotiate wage agreements that reflect the true value of 
their labor and not just--as tends to be the case today--the legally 
mandated minimum wage? Will the ACFTU embrace the system or simply sit 
on the fence, an increasing irrelevance to the real issues?
    The Chinese Government has a historic opportunity to create a 
system of peaceful negotiation between labor and management in which 
both sides respect each other, the negotiation process and the 
resultant legal contract. If it has the vision and courage to do so, 
Beijing will take a significant step toward realizing its own goal of 
creating a ``harmonious society,'' one in which citizens not only have 
confidence in and respect for the law, but also are active participants 
in the legal process and play a role in promoting greater social 
justice for all.
                                 ______
                                 

                  Prepared Statement of Wang Tiancheng

                             JUNE 18, 2008

    In 1978, Deng Xiaoping initiated China's ``Reform and Opening Up.'' 
One of the most important aspects of reform is the strengthening of the 
construction of the legal system. In the past 30 years, the primary 
reflections of progress in the legal domain have been in the following 
three areas: First, the formulation of a large number of laws and the 
establishment of a relatively complete body of laws that covers a 
variety of fields. In the era of Mao Zedong, China only had a small 
number of laws. Today it is already becoming difficult to clearly 
calculate exactly how many laws and regulations there really are. 
Second, the fostering of over a million talented legal specialists and 
the establishment of an approximately 140,000-person-strong contingent 
of lawyers. With the exception of the lowest levels of courts (that is 
to say, the county-level courts), the majority of other courts' judges 
have now received higher education in legal disciplines. Third, the 
successive establishment of many law schools and legal departments. Up 
to today, there are already 600 such schools and departments. It is 
becoming more and more difficult for graduates of law schools and 
departments to find work.
    The above progress is related to active promotion by the 
government. There has been additional progress, but it is in no way the 
result of active government promotion. However, I believe it will have 
a significant influence on future legal reform. This is the change in 
thinking of legal researchers and educators, as well as the thinking of 
Chinese society as a whole. Jurists' thinking is increasingly 
liberalized, and there are more and more people who dare to candidly 
express their thoughts. In the past 30 years, jurists have performed a 
special role in the improvement of Chinese legislation and certain 
laws, and I believe this sort of role will continue.
    However, as long as the one-party autocratic political system does 
not change, one should not overestimate jurists' role in future Chinese 
legal reform. Jurists can facilitate some small changes and repairs to 
Chinese law, but will not be able to make it develop into a free body 
of law.
    In the legal domain, China faces three very serious problems: one, 
there exists a set of laws and systems which deprive citizens of basic 
human rights and freedoms; two, the judiciary is not independent and is 
controlled by the Communist Party and administrative departments; 
three, the government, as the enforcement mechanism, does not receive 
outside supervision. These three issues are all products of the one-
party autocratic political system.
    The largest obstacle to China establishing rule of law and ensuring 
human rights is the one-party autocratic political system. How to 
facilitate this kind of transformation of the political system is the 
crux of the issue. I certainly don't believe that small changes to 
Chinese law, effected in dribs and drabs, will eventually lead to the 
democratization of China. However, I believe that criticizing the 
Chinese laws and institutions that oppose human rights, and creating 
pressure from public opinion, is beneficial to accelerating the arrival 
of democratization.
    I think the greatest impetuses for accelerating the reform of 
Chinese law in the direction of guaranteeing human rights are the 
people within China's dissatisfaction with reality and the gradual 
increase in their desire and call for democracy, human rights, and rule 
of law. At the same time, pressure from the international community is 
also extremely important.
    From a viewpoint of ensuring fundamental human rights and 
facilitating a transformation to democracy, I hereby raise the 
following suggestions to each respected Member of Congress:
    First, urge the Chinese Government to ratify the United Nations' 
``International Covenant on Civil and Political Rights.'' The Chinese 
Government already signed this convention in 1998, but 10 years have 
passed and it has still not been ratified. If the Chinese Government 
ratified this convention, you could then take the next step and request 
that it amend or abolish the laws that conflict with the convention.
    Second, you not only need to follow individual cases where the 
Chinese Government infringes on human rights, you also need to monitor 
the relevant legal articles and texts and point out where they are in 
opposition with human rights. If the laws and system do not change, the 
Chinese Government's softening or changing in certain individual cases 
does not indicate improvement in the state of human rights, because 
similar incidents involving human rights infringement will still occur.
    Third, please monitor with particular focus the following laws and 
institutions that are in opposition to human rights:

          1. The assembly and demonstration law. This law was passed in 
        October 1989, which was four months after the June 4th 
        massacre. According to this law, assemblies and demonstrations 
        must first obtain police approval. In reality, the freedom of 
        assembly and demonstration has been abolished.
          2. The provision in the Criminal Law related to the crimes of 
        plotting to subvert state power and inciting subversion of 
        state power. The PRC Criminal Law does not have the use of 
        violence or propagating the use of violence as a 
        prerequisite for engaging in this type of crime. All the people 
        who have been penalized under these charges were those who 
        published expressions of opinion criticizing the government, or 
        were people exercising their right to freedom of association 
        and demonstration.
          3. The ``Regulations on Religious Affairs'' issued by China's 
        State Council. These regulations were passed in 2004, and they 
        endowed the government with the power to interfere with 
        religious groups and religious activities, the main purpose of 
        which was to suppress the rapid expansion of Christianity 
        within China in the past few years.
          4. The Reeducation Through Labor system. This is a kind of 
        forced labor punishment which deprives people of their personal 
        liberties. In fact, it is no different than being sentenced to 
        prison, but it does not go through a trial in a court of law, 
        and the police agencies are the sole decisionmakers. This has 
        already been going on in China for decades. Mao Zedong used it 
        in the past to persecute hundreds of thousands of so-called 
        ``rightists.'' Today, every level of government in China 
        frequently uses it to persecute dissidents, Falun Gong 
        practitioners, Christian preachers, and an immense number of 
        petitioners.
          5. The state of detention centers. In China, once a person 
        enters a detention center, he is completely cut off from the 
        world. His family cannot go to visit him, and it is difficult 
        for his lawyer to see him. No one knows what the police might 
        do to him. And yet, the most important stage in the criminal 
        procedure is exactly this stage. The police will interrogate 
        him time and again. The trial in a court of law is often just a 
        formality.

    Fourth, urge the Chinese Government to establish an effective 
system for investigating constitutional violations. This is, to 
establish a constitutional court or to allow ordinary courts to accept 
cases concerning the Constitution, to investigate whether laws or 
administrative orders violate the Constitution, and to provide citizens 
with the new possibility of safeguarding their rights. The PRC 
Constitution promises various basic human rights and freedoms, but the 
legal and regulatory system nullifies them.
    Finally, I have one last statement: having the Chinese Government 
accept these criticisms and demands is certainly not easy, but I 
believe that unremitting criticism and pressure might eventually obtain 
results, and benefit the facilitation of 
democratization in China.
                                 ______
                                 

                    Prepared Statement of Xiao Qiang

   The Rise of Rights Consciousness and Citizen Participation on the 
                            Chinese Internet

                             JUNE 18, 2008

    Chairman Sander Levin, Co-Chair Byron L. Dorgan and Distinguished 
Commission members, my name is XIAO Qiang. I am the Director of the 
China Internet Project and founder of the online news portal China 
Digital Times at the Graduate School of Journalism of UC-Berkeley. It 
is a privilege for me to be speaking in front of this important 
commission, and alongside my distinguished fellow panelists. My talk 
today will focus on the rise of rights consciousness and citizen 
participation on the Chinese Internet, despite the Chinese Government's 
intensified control in this regard.
    First, let me start with some basic facts on the development of the 
Internet and related wireless technologies in China.
    By the end of 2007, the number of Internet users in the country had 
rocketed to 200 million, gaining 73 million new users in just 12 
months, according to the government-run China Internet Network 
Information Center (CNNIC).
    According to the CNNIC's statistics, Chinese Internet users are 
very young: about 51 percent of them are under age 25, and 70.6 percent 
of them are under age 30. The Internet population is also relatively 
well-educated, with more than 40 percent holding college or university 
degrees. Their education level contributes to the degree to which they 
participate in public affairs online.
    The rise of blogging, instant messaging, and social networking 
services such as QQ, and search engine and RSS aggregation tools such 
as Baidu (www.baidu.com) and Zhuaxia (www.zhuaxia.com), have given 
Chinese netizens an unprecedented capacity for communication. Internet 
Bulletin Board Systems (BBSs) play a particularly important role in 
Chinese Internet life. According to research data from the beginning of 
2008, 80 percent of Chinese sites are running their own BBSs and the 
total daily page views are over 1 billion, with 10 million posts 
published every day. By the end of 2007, China had more than 1.3 
million BBSs.
    At the same time, blogging activities have also exploded. Like BBS, 
blogging also has a very low entry cost--anyone with Internet access 
can open a blog on a hosting service. According to CNNIC, ``By the end 
of November 2007, the number of blog spaces has reached 72.82 million 
in China, and with 47 million blog writers, it is reaching one-fourth 
of the total netizens.'' While most posts are personal, an increasing 
number of bloggers writing about public affairs have become opinion 
leaders in their local communities.
    In addition to BBSs and blogs, chat rooms and instant messaging 
services such as QQ or MSN are also extremely popular online 
applications. A research report by Analysys International on China's 
Instant Messaging Market reveals that in the third quarter of 2007, 
active accounts of Chinese users numbered 388 million, with QQ being 
the most popular, and the highest number of users online at the same 
time reached 19.5 million. These instant messaging services play a 
crucial role to connect Internet users, communicate information, and 
coordinate actions through social networks. Finally, new photo and 
video sharing sites such as Yuku and Tudou are the fastest growing 
online applications. According to Peng Bo, deputy director of the State 
Council Information Office, ``Eighty percent of China's 210 million 
Internet users have used these services.'' The richness of images, 
video, and sound online has created a powerful media space where 
millions of users can themselves be 
content producers, distributors, and the audience.
    I have given testimonies before this commission on the state 
censorship and propaganda mechanisms over the Internet in the past. In 
general, the Chinese Party-state has been quite effective in 
controlling the political impact of the Internet by developing a multi-
layered strategy to control Internet content and monitor online 
activities at every level of Internet service and content networks. 
However, beneath the surface of these constantly increasing and 
intensified control measures, there is a rising level of public 
information and awareness in Chinese society. Today, my presentation 
will focus on examples and analysis of an emerging social and political 
phenomenon.
    First, let me start with three examples in 2007:
(1) Defending Rights: Chongqing Nail House
    A property dispute that erupted in Chongqing in 2007 provides a 
window into how this process works. On February 26, 2007, a netizen 
from Chongqing posted a distinct photograph of a two-story house, 
sticking up like a giant nail in the middle of a construction site. 
Within days, all major BBSs posted this photo with questions and 
commentaries from netizens. The house, whose owners were refusing to 
relocate to make way for a new development, was soon named by netizens 
as ``China's Most Incredible Nail House.''
    Because the image was quite dramatic and touched upon the common 
problem of urban construction, property rights, and forced evictions, 
official media soon jumped on the story. The house owners were 
successful and articulate entrepreneurs, who became media celebrities 
for their stand. The story broke just as the National People's Congress 
was passing a new property rights law that purports to protect 
individual homeowners, so the official media turned the story into a 
sample case under the new law, framing it as a middle-class couple 
standing against a powerful alliance of local officials and developers.
    The story soon became the hottest story on China's Internet. 
Sina.com, China's largest Internet portal, offered a monetary award for 
digital images and videos that caught the developments in the story. 
Mop.com, one of the most popular online forums ran a real-time 
monitoring page. When the local court reached a verdict that the couple 
must leave their house or be forcibly removed, the husband carried a 
huge red banner reading ``defending human rights according the law'' in 
front of media cameras. His actions gained empathy from a public 
frustrated by their feelings of powerlessness in the face of business 
and government interests, and therefore generated huge online support. 
Facing heated public opinion, the local court 
delayed their eviction so days after the deadline, the house still 
stood in the public eye.
    The central government weighed in to limit reporting on this topic 
after the couple disobeyed the court order and refused to move. As 
journalists for official media were no longer allowed to report the 
story, many netizens took on the reporters' role to cover it, using 
digital cameras and cell phones to follow the fate of the house and 
keep the story alive. Despite the reporting ban, many print and 
broadcast media continued to run commentaries and discussions on this 
case, exploring its relationship to the Property Law. Under public 
pressure, the developer finally settled the case and compensated the 
couple for their property, which was eventually destroyed. The case 
vividly illustrated the pressure faced by local officials when millions 
of individuals come together through the Internet, especially when the 
official media also comes on board.
(2) Hunting Down Injustice: Shanxi Brick Kilns
    Often government control over a story is not a black-and-white 
issue, as there can be official reasons to acknowledge some elements of 
a story while censoring others. A good example of this dynamic is the 
expose of widespread slave labor in brick kilns in Shanxi Province. The 
story started with a group of fathers from Henan Province who ventured 
to Shanxi Province to rescue their children, who had been abducted and 
illegally forced to work as slaves. After rescuing around 40 of an 
estimated 2,000 children, the fathers' efforts were obstructed by the 
local police, who, it was later discovered, were in alliance with the 
kiln owners. After obtaining no response from the government, the 
fathers published a moving open letter on June 7, 2007, on Tianya Club, 
one of the most-viewed Chinese online forums. The letter spread through 
the Chinese blogosphere and ignited national outrage. Reports in the 
official media followed and soon top Party officials including General 
Secretary Hu Jintao and Premier Wen Jiabao publicly expressed their 
concern over the issue.
    After the top leadership weighed in on the case, local and central 
Chinese media carried waves of horrifying stories about the brick 
kilns. The Internet further circulated the media reports, bloggers' 
comments and analysis, and photos of missing children, and the public 
began asking more and more critical questions about how this could 
happen in 21st century China. Investigations into the case soon 
revealed that local Party officials and police profited from such 
kidnapping and slavery operations. Facing the rising public questioning 
over the root of slave labor in China, the Internet Bureau of the CCP 
Central Office of External Communication sent out the following notice 
to all ``External Communication Offices'' and ``Central and Local Main 
News Websites'' on June 15, 2007:

          Regarding the Shanxi ``illegal brick kilns'' event, all 
        websites should reinforce positive propaganda, put more 
        emphasis on the forceful measures that the central and local 
        governments have already taken, and close the comment function 
        in the related news reports. The management of the interactive 
        communication tools, such as online forums, blogs, and instant 
        messages, should also be strengthened. Harmful information that 
        uses this event to attack the party and the government should 
        be deleted as soon as possible. All local external 
        communication offices should enhance their instruction, 
        supervision and inspection, and concretely implement the 
        related management measures.

    While trying to keep online public opinion under control on one 
hand, the central government also took action against kiln owners and 
officials who had been implicated in the slavery, sending 35,000 police 
officers to raid 7,500 kiln sites and penalizing 95 local officials. 
The state also turned the incident into a positive public 
relations ploy, publicly displaying their response to the specific 
crimes that had been committed, while suppressing other sharper critics 
and persistent investigations into the related deeper societal 
problems.
(3) Silenced: Ant Farmers Protest
    While the cases above demonstrate the weaknesses in the official 
Internet censorship, we should not forget that the government is still 
able to exert almost near control over information distributed online 
in particularly sensitive cases where officials make that a priority. 
In November 2007, 10,000 people demonstrated in front of local 
government offices in Shenyang, Liaoning Province, against a corrupt 
pyramid scheme, through which up to a million people, mostly poor or 
unemployed workers, had invested their life savings but received 
nothing when the company went bankrupt. The story was politically 
sensitive because the company, Yilishen, had ties with powerful 
officials including Bo Xilai, the former governor of Liaoning Province 
and current Minister of Commerce, as well as because of the mass 
protests that it inspired. The central government quickly imposed a 
complete news blackout on reporting about the incident. For a period, 
news about the scheme and subsequent protests could not be found 
through searches on the Chinese Internet. Once the foreign media began 
covering the case, those news reports found their way back into online 
forums, but were censored before they could be distributed in a mass 
way that reached the mainstream of Internet users.
    The examples of the Chongqing nail house and the Shanxi brick kilns 
point to early signs of a changing dynamic: First, the stories 
initially broke online, and were later carried by the traditional 
media. In this process, thousands, sometime hundreds of thousands of 
public-minded bloggers and some journalists also played a critical role 
in amplifying these messages. Second, despite government censorship 
efforts, the sheer speed and number of messages and Internet posts 
distributed made it impossible for censors to stay ahead of the game. 
The timing gap between the information cascade and top down censorship 
instructions was key, as was the gap in control between central and 
local authorities, which in these cases allowed local events to become 
national news and make it into the centrally-controlled media. Once 
sensitive stories are carried by the official media, the Internet plays 
a role of amplifying and keeping stories alive, thus creating a big 
public event. Yet the Yilishen story also shows us that when it is a 
political priority, the central government still has the means and the 
will to exert almost complete control over information online.
    Now, I would like to provide some analysis on the political impact 
of such online phenomenon.
    Beijing-based Internet expert, Hu Yong, has written: ``Since 
ordinary people now have the means to express themselves, `public 
opinion' has finally emerged in Chinese society. Since China never had 
mechanisms to accurately detect and reflect public opinion, blogs and 
BBSs have become an effective route to form and communicate such public 
opinions of the society.''
    For those both in and outside of the government who want to see 
deeper and more fundamental political change, the rising online public 
participation is an indicator that the rules of the political game in 
China have started to change. Xiao Shu, a commentator in Southern 
Weekend magazine has written about this process:

          The process is . . . to discover public events, follow public 
        events, publicize the truth of those public events, and the 
        logic behind and value within those events; for the public to 
        discuss, form a consensus in the society, and then change the 
        current rules of the game according to such consensus.
          . . . Through SARS reporting we have established a new 
        principle, which is that information must be public when there 
        are matters of public security in such a crisis. Through the 
        Chongqing Nail House event we are also changing the current 
        rules of the game of building and evictions. Through Xiamen PX 
        we are also changing a rule of the game, this time is to 
        establish the following principle: before major public projects 
        undergo construction, all people who would be affected by such 
        a project must be consulted, and their permission granted.

                               CONCLUSION

    The CCP's censorship of both traditional media and the Internet is 
certain to continue. However, the rise of online public opinion shows 
that the Party-state can no longer have total control of the mass media 
and information environment. The Internet is already one of the most 
influential media spaces in Chinese society--no less than traditional 
forms of print or broadcasting media. Furthermore, through online 
social networks and virtual communities, cyberspace has become a 
substantial communication platform to aggregate information and 
coordinate collective actions.
    What we have seen is an emerging pattern of public opinion and 
citizenry participation, which represents a power shift in Chinese 
society, as recent news events, from the Chongqing nail house, to slave 
labor in the Shanxi brick kilns vividly demonstrated. The Internet 
allows the increasing number of netizens to propagate, comment on and 
promote certain topics (albeit limited) from a local platform to the 
national stage, and many such ``public events'' now play a role in 
promoting human rights, freedom of expression, rule of law, and 
government accountability.
    Furthermore, some of China's more outspoken media such as Southern 
Metropolis Daily or Southern Weekend are also actively expressing much 
more liberal political ideas and pushing the envelope whenever they 
have a chance. Before the Internet, such reform-minded discourse was 
often vulnerable in the face of the domination of CCP's hegemonic 
propaganda. Now, however, as these more liberal elements within the 
established media converge with independent, grassroots critical voices 
online, they create a substantial force that is slowly eroding the 
party's ideological and 
social control.
    As we have also learned from the series of news events leading up 
to the Beijing Olympics--from protest riots and the government 
crackdown in Tibet, the rise of nationalism among Chinese inside and 
outside the country in response to international human rights 
criticism, and the tragic Sichuan Earthquake and the unprecedented 
response to it from the Chinese Government, media and citizens--
information and communication technologies are playing a critical role 
in facilitating social and political action in China. The Chinese 
Internet is still a highly contested space. The 
authoritarian CCP regime is learning to be more responsive and adaptive 
in this new environment. Likewise, the Internet has also become a 
training ground for citizen participation in public affairs. This 
process could have profound and far-reaching consequences within China, 
as well as for China's emerging role in the global community.
                                 ______
                                 

                 Prepared Statement of Xiqiu ``Bob'' Fu

China's Persecution of Protestant Christians During the Approach of the 
                       Beijing 2008 Olympic Games

                             JUNE 18, 2008

                              INTRODUCTION

    The approach of the Beijing 2008 Olympic Games has been accompanied 
by a significant deterioration in religious freedom for China's 
unregistered Protestant Church, also known as the house church. At the 
end of 2007 President Hu Jintao made statements that China has a policy 
of religious freedom. However, in May 2008, two independent sources 
informed China Aid Association (CAA) that the Ministry of Public 
Security has received funding from the Chinese Central Government to 
increase its campaign of eradicating house churches throughout China. 
Abhorrent abuse of religious believers continues, and regular raids of 
Christian meetings take place. Persecution includes the largest mass-
sentencing of house church leaders in 25 years, a level of expulsion of 
foreign Christians not seen since the 1950s, and targeted repression of 
the Chinese House Church Alliance. Also, reports have been received of 
planned intensified persecution, with greater control and prevention of 
large Christian gatherings also anticipated: it is further feared that 
harsher persecution will take place after the Olympics.
    It is vital for Western analysts to realize the destructive 
control--contrary to rhetoric otherwise--wielded by the Chinese 
Government in religious matters, and to recognize the extent to which 
this recent crackdown has permeated into various aspects of society. 
This report focuses on increased persecution especially in Xinjiang 
Province and Beijing, and on the restrictive measures affecting 
business, foreigners in China, and even individuals offering aid to 
earthquake survivors. Furthermore, the misuse of the legal system as 
demonstrated in numerous cases serves to highlight the deterioration in 
the rule of law in China. Another important development is that many 
Chinese independent religious groups including house churches are 
welcoming everyone--including the Chinese president, foreign statesmen, 
and diplomats--to attend their services. Understanding this development 
is vital to overcoming misunderstandings or unfounded fear by some 
Western diplomats and governments: the Chinese themselves do not fear 
to simply attend (so what fear do the western visitors have?), while 
persecution continues as a strong, underlying current to active 
participants. Western recognition of the increased religious 
persecution surrounding the Beijing 2008 Olympic Games is a key factor 
for reversing the current trend, and it is encouraged that the 
recommendations included in this report be used in dialogue with China.

                               BACKGROUND

    The Restricted Official Churches: China permits the operation of 
the official, registered churches. This government-sanctioned 
organization, called the Three Self Patriotic Movement (TSPM), suffers 
restrictions on selection and training of clergy, location of venues, 
publications, finances and relationships with Christians abroad. There 
are also restrictions on working with certain classes of people, 
including those under age 18. Religious education in government-
sanctioned seminaries is severely restricted.
    The Persecution of the Unregistered Church: Because of the 
atheistic government's control of TSPM churches, most Christians choose 
to worship in unregistered churches. However, those belonging to 
unregistered, and therefore illegal, groups can face many difficulties, 
including being harassed, humiliated, fined, tortured, imprisoned and 
subjected to forced labor. Physical assault has left Christians 
injured, hospitalized and disabled. Meetings have been forcefully 
dispersed, unofficial church buildings destroyed and property 
confiscated. New government regulations that came into force in March 
2005 renewed the drive to enforce registration. Because their faith is 
not recognized as belonging to an official religion, members of 
unregistered churches can be classified as cults, along with less 
conventional groups, and can therefore come under particular attack and 
be subjected to harsh penalties.
    The Limitation of Bibles and Christian Literature: The Chinese 
Government allows only The Amity Foundation in Nanjing to print Bibles 
and a limited selection of Christian materials. These Bibles are 
distributed only through the TSPM churches, making it difficult for 
house church Christians to obtain Bibles and other Christian materials. 
It is illegal to sell Bibles at public bookstores and other public 
facilities. Amity's production is insufficient to meet the needs of the 
burgeoning Christian population.\1\ Pastors who have printed Bibles and 
Christian literature to fill the unmet needs have been arrested and 
imprisoned.
---------------------------------------------------------------------------
    \1\ Precise figures for religious believers in China are impossible 
to obtain. Estimates of house church figures range from 40 million to 
over 100 million. In January 2007 CAA issued news that a reliable 
source had informed that Mr. Ye Xiaowen, the director of the State 
Administration for Religious Affairs, had stated in two internal 
meetings at Beijing University and the Chinese Academy of Social 
Science that there are now 130 million Christians in China, including 
20 million Catholics.
---------------------------------------------------------------------------
                  TRENDS OF THE PRE-OLYMPIC CRACKDOWN

    Overall Increased Persecution: In assessing persecution trends, CAA 
reported a rise of 18.5 percent in the numbers of Christians persecuted 
last year compared with the previous year, and an increase of 30.4 
percent in persecution cases. The analysis highlighted the level of 
persecution occurring in urban areas, reporting that just under 60 
percent of persecution cases occurred in such areas. The assessment 
also highlighted the ongoing targeting of house church leaders, with 
415 reported arrests of such leaders last year.
    Persecution Specific to Xinjiang: In April 2008, CAA reported that 
Chinese Government officials had launched a strategic campaign, called 
the ``Anti-illegal Christian Activities Campaign,'' against house 
church members in Xinjiang. While both Han and Uyghur Christians have 
been targeted, the plight of the minority Uyghur Christian population 
is especially harsh as they face persecution on the grounds of both 
their unusual religious faith and the broader ethnic persecution of the 
Uyghur people in Xinjiang. Even the limited religious freedoms 
protected elsewhere in China are further restricted in Xinjiang and 
there have been repeated arrests and mistreatment of Christians in 
Xinjiang over an extended period. Of particular concern is the use of 
national security and separatism charges against religious believers, 
even as recently as May 2008.
    Persecution of Unregistered Churches in Beijing: During May 2008, 
significant measures were taken against key unregistered churches in 
Beijing. Chinese house churches have long suffered persecution, but 
this is believed to be the first time that authorities have cracked 
down systematically on these Beijing churches which have members from 
among the more educated and wealthy strata of society who have greater 
awareness of their rights. (These churches generally meet in urban 
areas and were previously tolerated, even though operating with certain 
restrictions.) Three recent instances of such persecution follow:

          On May 9, 2008, Pastor Dong Yutao, a leader of one of 
        Beijing's largest house churches, was arrested while on his way 
        to collect a shipment of Bibles. The Beijing Public Security 
        Bureau (PSB) placed him under criminal detention for receiving 
        illegally printed Bibles and religious literature.
          On May 11, 2008, policemen and detectives broke into the 
        regular worship service at Beijing's Shouwang Church. A plain-
        clothed law enforcement officer showed his identification from 
        Haidian District Bureau of Ethnic and Religious Affairs and 
        ordered the church to stop its activities. Members of the 
        church were ordered to leave the premises as the gathering was 
        illegal.
          On May 25, 2008, various house church gathering sites 
        connected to the 1,000-strong Beijing Gospel Church were raided 
        by officials from 4 different government agencies, including 
        the Bureau of Ethnic and Religious Affairs. Officials forcibly 
        entered and searched the homes of house church members without 
        presenting search warrants or proper documentation and 
        proceeded to confiscate religious materials. Some of those 
        targeted sustained minor injuries from violence by the 
        officials. Victims of the attacks described the incident in an 
        open letter to government officials in which they cite various 
        laws which have been breached.

    Increased Measures To Prevent Property Rentals to Unregistered 
Groups: Many house churches were already being pressured to stop 
gathering or to leave Beijing by September 2007 when CAA reported a new 
restriction as described by Beijing Evening News on September 5: per 
direction of the Beijing Municipal PSB, police were to conduct 
inspection, and to warn owners of rental properties that they should on 
their own initiative refuse to rent their properties to ``five types of 
prospective tenants,'' including people who are accused of engaging in 
the so-called ``illegal religious activities.'' According to numerous 
reports received from CAA, many house churches in Beijing were 
pressured to stop gathering or to leave Beijing. House church leaders 
in Beijing identified the move as a new tactic to persecute the house 
churches before the Beijing Olympics.
    Prohibition of Religious Groups at the Olympics: According to 
disclosures which CAA received from reliable internal Chinese 
Government sources, the Ministry of Public Security of the Chinese 
Government issued a general nationwide order in April 2007 that all 
those from China and overseas who will participate in the Olympic 
Games, including athletes, media and sponsors, are to be strictly 
checked. The Ministry of Public Security also secretly issued a 
document entitled ``Notice on Strict Background Check on Applicants for 
the Olympic Games and the Test Events.'' In the 11-category blacklist, 
the third category is ``Religious extremists and religious 
infiltrators.'' The categories are further divided into 43 groups and 
Category Three includes the following:

          1. Members of illegal religious organizations both in China 
        and abroad.
          2. Members who have been caught by the Chinese authorities 
        for engaging in religious activities.
          3. People who have given illegal sermons.
          4. People who illegally distribute religious publications and 
        video/audio materials.
          5. People who have illegally established both in China and 
        abroad religious organizations, institutions, schools, sermon 
        sites and other religious entities. The restrictions also apply 
        to those wishing to attend the Beijing 2008 Olympic Games.

    Forced Labor for Olympic Products: While in prison, Beijing house 
church leader Pastor Cai Zhuohua was forced to work 10 to 12 hours a 
day making soccer balls for the Olympics. Pastor Zhuohua was released 
in September 2007 after serving three years of imprisonment for 
``illegal business practices'' for production of Christian literature.
    Rise in Persecution of Foreign Christians: China has conducted the 
largest expulsion of foreign Christians since the 1950s when all 
foreign missionaries were expelled. In a campaign termed ``Operation 
Typhoon No. 5,'' over 100 foreign Christians had been arrested, 
interrogated and expelled from China by the end of 2007. Most were from 
the West, but Koreans and those of other nationalities were also 
targeted. Seventy foreigners with secular business operations were 
expelled from Xinjiang alone. CAA reports an 833 percent increase in 
such expulsions compared with the previous year. Amongst the firms 
targeted was the British company Jirehouse which ran an operation in 
Xinjiang. The company's Project Manager, Alimujinag Yimiti, a Uyghur 
Christian, was accused of engaging in illegal religious activities and 
tried on May 27, 2008, for endangering national security.
    Persecution of Christian Publishers: A further trend relates to the 
treatment of those involved with Christian publications. There have 
been a series of cases where those involved in producing Christian 
literature have been accused of illegal business practices. Beijing 
church leaders Pastor Cai Zhuohua and Mr. Shi Weihan have both been 
targeted in this manner.
    Prevention of Aid: Although China's house church Christians have a 
strong desire to provide social support and humanitarian aid in China, 
authorities prevent them from carrying out such work. Government 
officials have refused aid from house church Christians to help the 
earthquake survivors in Sichuan Province and even arrested house church 
members who have volunteered to help those affected by the disaster. 
Among the cases was the arrest of three Christians in Sichuan Province 
on May 31, while they were carrying out relief work. On June 1, police 
raided a house church meting in Henan Province and interrogated 
participants about which church members would be taking donations to 
the earthquake affected area. Six members were held in detention under 
the charge of sending money to a disaster area in the name of a house 
church. Police and religious affairs officials stated they would not 
release them until they each paid a 1,000 yuan fine. The restriction on 
religious believers seeking to help survivors has been highlighted in 
The Wall Street Journal.\2\
---------------------------------------------------------------------------
    \2\ See http://online.wsj.com/article/SB121208455251929967.html or 
http://chinaaid.org/2008/05/30/chinaaid-relief-effort-reported-by-wall-
street-journal-christian-groups-step-delicately-in-sichuan/
---------------------------------------------------------------------------
    Exploitation in the Exercise of Law: CAA continues to receive 
reports from numerous provinces of individuals targeted for their 
peaceful practice of their Christian faith.\3\ Despite the religious 
nature of their actions, some Christians are subjected to criminal 
detention and face such charges as ``endangering national security'' 
and ``inciting separatism.'' They have faced further difficulty to 
rightful legal representation when their lawyers are withheld or 
harassed. Experiences of inhumane and violent treatment while in 
detention is consistently reported, including report of prisoners with 
serious medical conditions not receiving requested medical treatment.
---------------------------------------------------------------------------
    \3\ Specific cases are presented in report at http://chinaaid.org/
pdf/Pre-Olympic--China--Persecution--Report--in--English--June2008.pdf.
---------------------------------------------------------------------------
                            RECOMMENDATIONS

    Following his visit to China in 1994, the United Nations Special 
Rapporteur on Religious Intolerance\4\ made a number of recommendations 
which would assist in bringing China's religious law and practice into 
line with international standards. These recommendations are from an 
authoritative impartial source and China should be urged to implement 
them. They include the recommendations that China should:
---------------------------------------------------------------------------
    \4\ The title of the Special Rapporteur has since been changed to 
Special Rapporteur on Freedom of Religion or Belief.

    <bullet> Provide an explicit guarantee of the right to manifest 
religion and, accordingly, amend the pertinent legal texts, including 
Article 36 of the Constitution, to provide constitutional guarantees of 
religious liberty that accord with the definition of religious freedom 
provided in the 1981 Declaration.
    <bullet> Adopt a specific provision clearly stating that persons 
under the age of 18 have the right to freedom of belief, in accordance 
with China's obligations under the 1989 United Nations Convention on 
the Rights of the Child, particularly those arising under Article 14.
    <bullet> Adopt a text explicitly recognizing the right to freedom 
of belief for everyone, including members of the communist party and 
other socio-political organizations.
    <bullet> Abandon the practice of distinguishing between ``normal'' 
and ``abnormal'' religious activities and respect the right of all 
individuals to freely follow their chosen belief, without interference, 
subject only to the limitations laid out in international standards, 
most notably in Article 1(3) of the 1981 Declaration, namely only those 
that are prescribed by law and are necessary to protect public safety, 
order, health or morals or the fundamental rights and freedoms of 
others.
    <bullet> Release all those detained for religious reasons.
    <bullet> Provide human rights training, particularly on religious 
freedom, to state officials and judges.
    <bullet> Post the principal texts on religious freedom in the 
relevant administrative services concerned, compile and distribute a 
compendium of texts on religious freedom together with implementation 
instructions, distribute human rights materials to religious 
organizations and inform citizens and organizations of appeal 
procedures available in the event of refusal to register religious 
organizations.
    <bullet> Provide education on religious freedom, including at the 
university level.

    In addition it is recommended that China:
    <bullet> Recognize the right of freedom to choose any religion, 
including those outside the official organizations and the five 
recognized religions.
    <bullet> Rescind the registration system in its present form so 
that it is no longer a mechanism for controlling religious activity.
    <bullet> Cease the policy of imposing penalties, including 
administrative and criminal detention, fines, confiscation of property 
and destruction of premises, for religious behavior.
    <bullet> Establish a dialogue with representatives of the house 
churches, as requested in the appeal issued by house church leaders on 
August 22, 1998.
    <bullet> Maintain follow-up contact with the Special Rapporteur on 
Freedom of Religion or Belief.\5\
---------------------------------------------------------------------------
    \5\ See http://www2.ohchr.org/english/issues/religion/index.htm.
---------------------------------------------------------------------------
    <bullet> Ratify the International Covenant on Civil and Political 
Rights and amend legislation and practice to conform to the rights laid 
out therein.
    <bullet> Implement effective protection for religious believers 
from arbitrary detention and abuse by officials and address the 
impunity of officials who abuse individuals and groups due to their 
religious beliefs.
    <bullet> Allow the free movement of religious materials and 
personnel into and within the country.
                                 ______
                                 

  Prepared Statement of Hon. Sander Levin, a U.S. Representative From 
    Michigan, Chairman, Congressional-Executive Commission on China

                             JUNE 18, 2008

     Nearly six decades ago, in 1949, Mao Zedong spoke near Tiananmen 
and announced that ``the Chinese people have stood up.'' The world took 
note.
    Nearly two decades ago, on June 4, 1989, the Chinese people stood 
up again at Tiananmen, but China's leaders ordered them to stand down. 
Many defied that order, choosing instead to remain faithful to their 
aspirations. We all remember how China responded. The world took note.
    Less than one decade ago, On July 13, 2001, the Chinese people 
stood at Tiananmen again, this time to celebrate the success of 
Beijing's bid to host the 2008 Olympic Summer Games. China's leaders 
made a number of very concrete commitments in connection with Beijing's 
bid, including commitments to hasten progress in human rights and the 
rule of law, and they repeatedly promised the world that China would 
fulfill these commitments in the period leading up to the Olympic 
Summer Games. The world took note.
    The world takes note that China's leaders repeatedly tell the world 
that the Chinese people stand and speak, but at the same time 
repeatedly shows the world that those of its citizens who most 
vigorously display fidelity to the aspirations of the Chinese people to 
remain standing and to speak freely are silenced.
    This Commission was created by Congress and the President in 2000 
to monitor and report on China's compliance with international human 
rights standards and the development of the rule of law. A hearing held 
by this Commission in February of this year documented and examined the 
commitments that China has made in connection with its Olympics bid and 
its preparations for the 2008 Summer Games.
    I draw your attention to this booklet which contains a full 
transcript of the hearing, as well as full witness statements and other 
useful resources. Please be sure to take a copy from the table in the 
back, or download the pdf version from the Commission's web site, 
www.cecc.gov.  There you will read in detail how China committed to 
progress on press freedom, on the environment, on basic human rights, 
on openness in general, and in many other areas. You will see why it is 
reasonable to say that the record remains highly disappointing.
    I should say that the new Regulations on Open Government 
Information may be one possible exception--I say ``possible'' because 
implementation of this new measure, though potentially promising, is 
still in the very early stages.
    Nonetheless it remains unclear at this time what factors will set 
the course of China's future legal development. And that is why we are 
doubly privileged to listen today to four people whose commitment to 
the development of the rule of law in China has been unwavering.
    And let me make clear that, by the "rule of law," I mean true rule 
of law, not documents stamped with the word "law" that officials then 
allow to become so divorced from effective implementation that the 
distinction between the promulgation of law and the making of 
propaganda becomes meaningless. For that appears to be exactly what has 
occurred in many areas of the law in China. It is a growing concern in 
no small part because it places the credibility of three decades legal 
and regulatory reform at ever-increasing risk.
    In its last Annual Report, this Commission noted four factors that 
appeared to be highly influential in determining the course of China's 
future legal development.

        <bullet> First, China's leaders' increasing intolerance of 
        citizen activism.
        <bullet> Second, increasing, and increasingly obvious, 
        manipulation of law for politically expedient purposes.
        <bullet> Third, a concerted effort to ensure that sensitive 
        disputes do not enter legal channels, thereby insulating the 
        Central government from the backlash of national policy 
        problems.
        <bullet> Fourth, the growing impact outside of China of its 
        domestic problems of implementation.

    Let me also note that the Commission's 2007 Annual Report 
explicitly noted that ``the impact of emergencies'' and China's 
response to emergencies

        will both shape and be shaped by China's rule of law reforms. 
        Because their impact on the course of rule of law in China is 
        expected to be large, these developments are covered here in 
        added detail.

    That was nearly six months before the Tibetan protests, and eight 
months before the recent earthquake. Of course the emergencies to which 
the Report referred were not these (it discussed food safety, product 
quality and climate change), but the notion that emergencies per se 
would become a major element structuring the course of China's future 
legal development was a significant observation.
    Today I would ask our panelists to tell us from their own first 
hand experience the factors that we should keep in mind as we evaluate 
the status of rule of law issues in China and their impact on creating 
an atmosphere of progress for China's citizens.
                                 ______
                                 

  Prepared Statement of Hon. Byron Dorgan, a U.S. Senator From North 
    Dakota, Co-Chairman, Congressional-Executive Commission on China

                             JUNE 18, 2008

    The purpose of today's hearing is to examine China's legal 
development. For three decades now, China has engaged in legal reform. 
But it seems to be at a stand still, and it is unclear at this point 
whether that means it has stalled or is at a turning point.
    Why does it appear to be at a stand still?
    Well, first, the massive earthquake that tragically killed and 
injured tens of 
thousands of people, too many of them children. Second, the violent 
crackdown that began in March continues in Tibetan areas. Beijing has 
closed off most Tibetan areas, and detained or expelled journalists. 
Finally, the Summer Olympic Games are fast approaching. Hosting the 
Olympic Games has highlighted some of Beijing's achievements. We don't 
and shouldn't deny them that. But even more it has highlighted 
Beijing's terrible record on human rights and the environment. As the 
Olympic torch circled the globe, Beijing's Olympic dream became a 
public-relations nightmare.
    These three events are having an enormous impact on many areas in 
China, including legal reform and human rights. And that is why we are 
here today.
    At the Commission's February hearing on the Olympics, I submitted 
for the record a list of political prisoners. Here is an update on just 
one: Hu Jia, a courageous activist, was jailed last December by Chinese 
authorities for comments he made at a European Parliament hearing. His 
comments were critical of China's hosting the Olympics. At the time of 
the CECC hearing, his wife and 4-month-old daughter had been under 
house arrest for several months. In April, he was sentenced to three 
and a half years in prison for ``inciting subversion of state power.'' 
Hu has severe health problems. His request to be released on bail for 
medical treatment was denied in June. His wife and baby remain under 
constant surveillance, and face harassment.
    Every country that has hosted the Olympics has had its critics--
both at home and abroad. China has dissenting voices too on the 
Olympics--like Hu Jia. But instead of being tolerant, it has hit back 
hard with a combo punch of intimidation and 
imprisonment.
    The Commission is dedicated to understanding these events on a deep 
level. For that reason, we have called four prominent Tiananmen Square 
activists and now internationally renowned figures in human rights and 
rule of low in China. We hope they will address two straightforward 
questions:

          What factors are most likely to determine the course of 
        China's legal development in the coming year and beyond?
          What factors do Western analysts more frequently tend to 
        overlook or misinterpret?

    I would ask each of our witnesses to highlight for us the factors 
that, in each of your varied experiences, and unique perspectives this 
Commission should focus on in order to most effectively understand the 
course that China's legal development is taking and will take as events 
unfold.
    It would be helpful if you would focus specifically on steps China 
has taken to: combat corruption and to maintain popular support for 
further reform, prospects for the enforcement of worker rights, 
collective bargaining, and labor unions.
    I would also ask that you comment on the regulation of religious 
life and of minorities, and trends in pre-Olympic crackdown.
    Finally, I would also ask each of our witnesses to make a. point 
also of identifying for us the one or two factors that, in your 
experience, Western analysts most frequently overlook, misunderstand, 
or plainly misinterpret. Your complete candor will be most helpful and 
appreciated.
                                 ______
                                 

Prepared Statement of Hon. Joseph R. Pitts, a U.S. Representative From 
   Pennsylvania, Member, Congressional-Executive Commission on China

                             JUNE 18, 2008

    Mr. Chairman, thank you for holding this important hearing on What 
Will Drive China's Future Legal Development? Reports From the Field. I 
remain disturbed about the negative trends on human rights issues in 
China prior to the Olympic Gaines in August. Many thought the Chinese 
government would understand that with a brighter spotlight on its 
treatment of its citizens, the officials would take this opportunity to 
allow for more freedom for journalists, lawyers and human rights 
advocates. There were positive steps in relation to allowing reporting 
on the tragic earthquake in China, and this led to much international 
sympathy and humanitarian and disaster assistance.However, the general 
trends are disturbing as there is increased harassment of religious 
leaders and practitioners and others. Case in point is the May 21, 2008 
recording of Chinese consulate official Mr. Peng Keyu describing his 
and other officials' role in organizing, in the United States, protests 
against and harassment of Falun Gong members. While this particular 
instance focused on Falun Gong, I have received reports of other 
Chinese religious believers or political activists inside the United 
States being harassed and. threatened by Chinese government officials. 
It is indeed a problem when Chinese officials harass their own citizens 
at home and in a nation like ours where rule of law is established--
it's even more disturbing when the Chinese government hacks the 
computers of Members of Congress who focus on raising awareness of 
human rights violations within China. That does not bode well for the 
positive treatment of the average Chinese citizen who wishes to 
peacefully express his or her social, political or religious views.
    In our previous hearing, I mentioned being encouraged and 
discouraged during countless cycles of two steps forward and then three 
steps backward in terms of the Chinese government's respect for the 
Chinese people. Sadly, since our February hearing, nothing has really 
changed. I continue to receive numerous reports about Chinese 
officials' actions against North Korean refugees, Uyghur Muslims in 
Xinjiang Province, child laborers, Tibetans, Catholics loyal to the 
Vatican, and Protestant house church leaders and congregants. In fact, 
on June 1, 2008, government officials detained nine house church 
congregants in Henan for providing funds to help victims of the 
earthquake, and in late May, security officials confiscated a bank 
card, a mini-van, Bibles and Christian literature from a house church 
seminary. It does not appear the Chinese security officials are 
interested in maintaining any facade of treating religious believers 
with respect. There are additional reports, including from China. Aid 
Association, that the ``Ministry of Public Security has received 
funding from the Chinese Central Government to increase its campaign of 
eradicating house churches throughout China.'' Even further, this 
morning I received a report that a senior house church leader, Mr. 
Zhang Mingxuan, and his interpreter were detained today as they 
traveled to meet with an official from the European Union; Pastor Zhang 
has been beaten, arrested, and imprisoned 12 times by Chinese security 
officials.
    It takes great courage and leadership to challenge the Chinese 
government's 
actions and attitudes, even more so when the officials break their own 
laws. Yesterday, the National Endowment for Democracy held an event to 
honor ``Chinese workers, lawyers, and writers working to advance 
democratic values and fundamental rights within China.'' Recipients of 
the NED award included Chen Guangcheng, Teng Biao, Li Heping, Li 
Baiguang, Zhang Jianhong, Yao Fuxing, and Hu Shigen. These individuals, 
our witnesses today, and others who cannot be named, are true heroes as 
they seek to make a better today and tomorrow for the people of China.
    I look forward to hearing from our very distinguished witnesses and 
receiving their insights and recommendations on steps the U.S. 
Government should take to further support the fundamental rights of the 
Chinese people.

                                 <all>

</pre></body></html>
